<html>
<title> - OVERSIGHT OF UNITED STATES/MEXICO COUNTERNARCOTICS EFFORTS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





       OVERSIGHT OF UNITED STATES/MEXICO COUNTERNARCOTICS EFFORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 1999

                               __________

                           Serial No. 106-83

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
62-540 CC                   WASHINGTON : 2000





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
              Sean Littlefield, Professional Staff Member
                          Amy Davenport, Clerk
                    Micheal Yeager, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 1999....................................     1
Statement of:
    Constantine, Thomas A., Administrator of the Drug Enforcement 
      Administration, U.S. Department of Justice; and Rand Beers, 
      Assistant Secretary, Bureau of International Narcotics and 
      Law Enforcement Affairs, U.S. Department of State..........     7
    Nelson, Benjamin, Director of International Relations and 
      Trade Issues, National Security and International Affairs 
      Division, U.S. General Accounting Office, accompanied by 
      Ron Kushner, Assistant Director............................   112
Letters, statements, et cetera, submitted for the record by:
    Beers, Rand, Assistant Secretary, Bureau of International 
      Narcotics and Law Enforcement Affairs, U.S. Department of 
      State:
        Letters concerning decertification.......................    49
        Prepared statement of....................................    61
    Constantine, Thomas A., Administrator of the Drug Enforcement 
      Administration, U.S. Department of Justice, prepared 
      statement of...............................................    14
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, article dated March 4, 1999.........    88
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    90
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii:
        Chart concerning Mexican extradition statistics..........    57
        Chart concerning Mexico eradication and seizure 
          statistics.............................................    54
    Nelson, Benjamin, Director of International Relations and 
      Trade Issues, National Security and International Affairs 
      Division, U.S. General Accounting Office, prepared 
      statement of...............................................   114

 
       OVERSIGHT OF UNITED STATES/MEXICO COUNTERNARCOTICS EFFORTS

                              ----------                              


                        THURSDAY, MARCH 4, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met at 10:26 a.m., in room 2247 of the 
Rayburn House Office Building, Hon. John L. Mica (chairman of 
the subcommittee) presiding.
    Present: Representatives Mica, Gilman, Souder, Hutchinson, 
Mink, Cummings, Kucinich, Blagojevich, and Turner.
    Staff present: Robert B. Charles, staff director/chief 
counsel; Sean Littlefield, professional staff member; Rob 
Mobley, congressional fellow; Amy Davenport, clerk; Earley 
Green, minority staff consultant; and Michael Yeager, minority 
counsel.
    Mr. Mica. I will call the hearing of the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources to order.
    We have several other Members who are tied up in hearings 
and will join us shortly, but I am pleased to welcome you this 
morning to this hearing entitled the Oversight of the United 
States/Mexico Counternarcotics Efforts.
    This morning I will start our subcommittee proceedings by 
making an opening statement and yield to other Members that are 
here. We will then hear from our witnesses and will probably 
defer other opening statements, since we have had a delay, 
until after we have heard from our witnesses. I appreciate 
their indulgence.
    We did try to be tolerant of their other schedules this 
morning, but we must proceed.
    I would like to start with my opening comments, again a 
very serious topic, a grave situation that we are dealing with, 
particularly the problems of drugs coming in from Mexico.
    Drug abuse in America, especially among our youth, is at 
epidemic levels. The situation with international drug 
trafficking, I believe, is becoming a threat to our national 
security. Over 14,200 Americans lost their lives last year to 
drugs and drug-related crime at a cost of billions and billions 
of dollars, not to mention the cost to families and to 
communities in distress.
    Despite a long and productive relationship with our ally to 
the south, Mexico, the hard river of drugs ending up on 
America's streets is coming across the Mexican border. Not only 
is Mexico the leading source of deadly hard drugs entering the 
United States, according to DEA's signature program, Mexico has 
now become a major producer of high purity heroin.
    If you wouldn't mind, let's hold this up here. This is a 
chart prepared on the source of heroin from 1997, and it shows 
Mexico is not only the major trafficker but it shows that it is 
now becoming a major producer of heroin. Of the heroin that is 
coming into the United States, 75 percent is produced in South 
America, and our DEA Administrator can elaborate on what is 
happening.
    Not only do we have the transiting of this deadly heroin 
through South America, we also now have production, and we know 
this is accurate by the signature program that can determine 
the source of heroin.
    Additionally, Mexico serves as the major source of foreign 
methamphetamine that is ravaging our midwest communities, the 
western part of the United States and is now spreading 
throughout the country. Of the cocaine on America's streets, 50 
to 70 percent crosses our southwest border. This is an 
absolutely staggering figure and a staggering quantity of 
drugs, again all entering through Mexico.
    Additionally, Mexico is, as I said, one of the major 
foreign sources of methamphetamine. A recent article in the 
Minneapolis Star Tribune stated that about 85 percent of the 
methamphetamine in Minnesota is smuggled through Mexico. This 
is just a little quote from the Minneapolis Star Tribune in 
September of last year. Drugs coming from Mexico undermine our 
communities. They spread and finance gang violence and, in 
fact, they are destroying young lives in America at a record 
level. Heroin deaths among our young have nearly doubled in the 
past few years. These are innocent, often unsuspecting youths.
    In many cases, our young people are the greatest victims of 
this devastation being imported in large quantities, as I said, 
from Mexico. If nothing else, we should be concerned about 
young people who are at the center of this whole issue. 
Congress, and I believe the subcommittee, owe them our 
leadership.
    The statistics on drug use, particularly among our young 
people, continue to be worrisome and should sober every 
American and every Member of Congress. Heroin use is up a 
staggering 875 percent among our teens. Today we should be 
appalled by the trends. Drug overdose deaths continue to plague 
our metropolitan areas and not just our inner cities, but, 
today, suburbs and our schools and almost every street in our 
communities.
    Drug use is highest among our 12th graders with more than 
50 percent of our 12th graders having tried an illicit drug and 
more than 1 in 4 labeled as current users.
    Today, our subcommittee will examine Mexico's role in the 
fight against illegal drugs. Without question, no country in 
the world possesses a more immediate drug threat and national 
security danger to the United States.
    In an effort to fully examine this issue, we will hear 
testimony from our DEA Administrator Tom Constantine, and Randy 
Beers from the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs. They will be followed by 
the General Accounting Office who will outline Mexico's 
counternarcotics activities taken over the last year.
    While some minor progress has been made against drug 
trafficking in Mexico, that country has, in my estimation, 
failed to live up to concerns expressed by Congress over 2 
years ago. Despite some of the reports that progress has been 
made against drug trafficking in Mexico, Mexico still has not 
done the following things, and we talked about these and the 
House passed a resolution 2 years outlining these things.
    Mexico still has not signed a bilateral maritime agreement. 
Corruption remains a major impediment. Additionally, U.S. drug 
enforcement agents are not allowed to adequately protect or 
defend themselves. Our agents still remain at risk. Mexico has 
failed to extradite a single major drug trafficker. What is 
even more troubling is that, for example, when money laundering 
was discovered among Mexican banking officials last year, 
rather than cooperate, Mexican officials threatened to indict 
United States Customs officers.
    Now, what is of great concern to me is that Mexico has lost 
vast land areas, in fact, they have lost entire states and 
regions to the control of narco-traffickers. We have only to 
look at the Baja peninsula and the Yucatan peninsula for 
examples of areas completely lost to narco-traffickers. Under 
the reports we have received there are, again, complete areas 
under the control of narco-traffickers.
    If this trend continues, Mexico could be on the verge of 
turning its sovereignty over to drug traffickers. It is 
difficult for me to believe that this administration would 
certify Mexico as fully cooperating if we just take a few 
minutes to look at what has taken place in the statistics. The 
statistics and facts are indeed troubling. Some of the 
statistics from 1998 are absolutely startling. Boat seizures 
were down last year in Mexico, 29 percent from 1997. On this 
chart are the basic facts of what took place 1997 and 1998 
relating to major seizures of hard drugs--opium, heroin and 
cocaine. These statistics are mind boggling. A reduction in 
heroin seizures of 56 percent, a reduction in cocaine seizures 
of 35 percent.
    These are issues that must really be faced and be at the 
top of our agenda today as we attempt to find solutions to this 
disastrous situation. We aren't here today to bash Mexico. We 
are here in an effort to find out what went wrong? Does the 
certification process work? And why is there such concern among 
our law enforcement officials and people on both sides of the 
aisle, Republican and Democrat?
    I will close with the comments of our minority leader who 
said, ``After reviewing the past year's record, I am compelled 
to disagree with the President's decision to certify Mexico as 
fully cooperating with our government in the fight against 
drugs,'' and that was by Mr. Gephardt.
    So there is major concern on both sides of the aisle that 
this situation with Mexico may be out of control, that we may 
indeed have erred in certifying Mexico and that we need to get 
a real handle on what is going on and how we can work as 
partners with Mexico to bring this situation under control.
    So with those opening comments this morning, I would like 
to yield to the ranking member of our subcommittee, Mrs. Mink, 
the gentlelady from Hawaii. You are recognized.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.001
    
    [GRAPHIC] [TIFF OMITTED] T2540.002
    
    Mrs. Mink. Thank you, Mr. Chairman.
    I wanted to first note that Chairman Mica and six other 
Members of Congress have just returned from a very rigorous 
field trip to a number of countries, El Salvador, Panama, 
Colombia, Peru, Bolivia, and ending up with a 3-day visit in 
Mexico City before returning to the United States via El Paso. 
We did make a brief stop initially in Miami, also.
    This trip certainly revealed to me the enormity of the 
traffic problem that we are faced with and the transit of drugs 
through Mexico was clearly evidenced in all of our discussions 
with our American officials and with the various country 
officials with whom we had the opportunity to meet.
    I come to this subject area rather new, perhaps naive in 
many ways about the nature of the trafficking and the amounts 
and the course through which they penetrate our borders. But it 
certainly was not with any lack of understanding of the scourge 
that this country faces in terms of the victims, mostly our 
children and all of our communities who are affected by this 
drug trafficking.
    So we have a unique opportunity, I think, in this committee 
and in the Congress to focus attention on both the matter that 
is at hand today in this hearing, and that is the trafficking 
problem through Mexico, and the debate that will ensue with 
reference to the President's decision to certify, and others 
who feel that they are in disagreement with that decision.
    The other part of the triangle with which I am very much 
concerned, is to what extent we, in the United States, are 
mounting as vigorous as a battle as we can in the law 
enforcement area. We have focused our attention on education 
and treatment and other matters, but it seems to me that we 
need to now turn, as we are doing, to other countries. We need 
to determine exactly what we are doing with respect to other 
countries in the areas of detection, eradication, and penalties 
for the people that are responsible for the consumption of 
drugs by our constituents.
    So I look forward to the testimony this morning, Mr. 
Constantine and Mr. Beers. You will certainly add light to the 
information that we have at hand, and I look forward to the 
opportunity to propound a number of questions.
    Thank you very much.
    Mr. Mica. I thank the gentlelady, and I am pleased to 
recognize the gentleman from Texas now, Mr. Turner, for an 
opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    I appreciate the Chair having this hearing today. Coming 
from the State of Texas, that shares a border with Mexico, we 
are in Texas, of course, proud of our cultural and economic 
ties to Mexico, but also uniquely aware of the law enforcement 
burdens that come along with the problems of the narcotics 
traffic across our border.
    We know and understand that the certification process is an 
awkward hammer and often difficult to use in a meaningful way. 
And we also, I think, in Texas, appreciate the fact that it is 
often important to understand that those who generate the 
demand for drugs share equally in the burden of finding 
solutions with those who generate the supply.
    But I do think that as we have this hearing today it is 
important for us to understand that as we pursue our mutual 
goals of trying to eliminate drug use and abuse and of 
increasing our law enforcement efforts along the border that we 
must do so with an understanding of the other national 
interests that we have with Mexico and the ties that have 
existed for many years that we want to preserve.
    So, Mr. Chairman, with that I appreciate, again, you 
hosting this important hearing.
    Mr. Mica. I thank the gentleman. I am pleased now to 
recognize our two witnesses on our first panel this morning.
    We are privileged this morning to have one of the most 
distinguished law enforcement officers of the United States, 
Mr. Tom Constantine, who is our Administrator of the Drug 
Enforcement Agency. We are also privileged to have an Assistant 
Secretary of the Bureau of International Narcotics and Law 
Enforcement of the Department of State, the Honorable Randy 
Beers, who has joined us.
    As you may know, gentleman, in addition to having some 
authorizing ability in the national drug policy area, we are 
also an investigative and oversight subcommittee of Congress 
and we do swear in our witnesses. So if you would please stand 
up.
    [Witnesses sworn.]
    Mr. Mica. Let the record reflect that the witnesses 
answered in the affirmative.
    Again, I am pleased to welcome one of the most courageous 
law enforcement officers, one of the most respected gentleman 
that I have seen. He accompanied me right after I was named 
Chair. We went together to a meeting in Europe in Baden, I 
believe it was, Austria, and met with officials from throughout 
the world, some of the drug czars, leaders, to begin my effort 
and renew his effort and others in this international war 
against illegal narcotics.
    I was so impressed with his comments, his presentation, and 
the respect that he has, not only in this country, but 
throughout the world in this difficult battle. So I am 
absolutely pleased and delighted that you are joining us today 
and look forward to your testimony and comments. You are 
recognized, sir.

STATEMENTS OF THOMAS A. CONSTANTINE, ADMINISTRATOR OF THE DRUG 
  ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE; AND 
   RAND BEERS, ASSISTANT SECRETARY, BUREAU OF INTERNATIONAL 
NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Constantine. Congressman, thank you very much for your 
kind comments and to the other members of the committee.
    I have submitted a fairly lengthy document detailing our 
analysis of the organized crime drug problem and especially as 
it impacts the United States and as the command and control is 
in Mexico, and I would ask your forgiveness to have that as my 
official submission.
    Mr. Mica. Without objection that entire statement will be 
made part of the record.
    Mr. Constantine. OK, thank you. The central theme of that 
presentation concerns really how major organized crime 
syndicates are impacting the citizens of the United States and 
how the organizations that are based in Mexico have become so 
powerful in a relatively short period of time.
    All of the information that is in that report and in this 
presentation is based on a complete and very detailed analysis 
of every major narcotics investigation conducted by the DEA, 
which involves organized crime groups that are headquartered in 
Mexico.
    In addition to our own fact finding and analysis, we 
consulted with each of the Federal agencies in the law 
enforcement community and the intelligence community and we 
have also reviewed and discussed our analysis with all the 
major State, city, and local agencies throughout the United 
States.
    As a side comment, we have been watching with some degree 
of concern over the last 2 or 3 years, a spread of the 
narcotics problem out of the urban areas of the United States 
into the rural mid-sized cities. As a result, we brought 
together about 100 police chiefs, sheriffs and prosecutors a 
little over a week ago to a hotel out by Dulles Airport. Prior 
to bringing them there, we submitted a fairly detailed survey 
form asking them to describe their narcotics situation in their 
city, county, town, or State.
    Sixty-eight percent of those who came and replied indicated 
that the nexus of their drug trafficking outside of their 
immediate area was organized criminal groups from Mexico. This 
was later then played out in a series of workshops. And 
eventually we will be putting together a report within the next 
month explaining all of the problems that these smaller and 
mid-sized areas that are suffering, often without the necessary 
resources. By the way, that chart depicts kind of a spread, as 
you can see, of these cities, villages, towns and counties.
    Our analysis of the problem really has focused on how 
sophisticated criminal organizations based in another country, 
in this case Mexico, can commit massive criminal activity 
within the United States. At present these syndicates, which 
are based in Mexico, in our opinion and in my opinion, pose the 
greatest drug trafficking threat to the citizens of the United 
States.
    As a result of some excellent investigations by Federal, 
State and local law enforcement we now have a very clear 
picture of how these drug lords ship tons of narcotics into the 
United States, collect billions of dollars from United States 
citizens, and then, at times, arrange for the assassinations of 
either witnesses and/or public officials in both Mexico and the 
United States.
    We have identified and in many cases acquired sufficient 
evidence to indict many of the key leaders of these 
organizations.
    But so far, they have been able to evade arrest and 
prosecution. Like all organized crime systems throughout the 
history of the modern world, they have been able to succeed 
using traditional tools. Those tools are violence, intimidation 
and corruption.
    Unfortunately, as I said last week before the Senate, as I 
testify on this issue of the problem and the impact on these 
organizations that are based in Mexico on the citizens of the 
United States, it has been interpreted by some as a criticism 
of the people of Mexico or the Government of Mexico. Nothing 
could be farther from the truth. I have great respect for the 
citizens of Mexico, and I have met with a number of public 
officials who I respect equally.
    However, I have at several times in my law enforcement 
career taken an oath of office. I also administer that oath of 
office to new DEA graduates and at one time, State troopers. 
And that oath requires that we protect the citizens of the 
United States. I take that oath very seriously. I have 
dedicated my life to it. At times I have risked my life for 
those same principles.
    So our analysis on this problem is not based on criticism 
of Mexico as much as it is based on the fact that there are 
criminal organizations and drug lords who live there who are 
doing a great deal of damage within the United States. Their 
operations are fairly traditional.
    On any given day, probably as we are speaking here this 
morning, drug lords in Colombia and Mexico are involved in 
business transactions. The transactions that they are involved 
with is that they communicate with criminal operatives they 
have sent into the United States. These organizational 
operatives then arrange for the shipment and storage of tons of 
cocaine and hundreds of kilos of heroin and methamphetamine to 
be sold to our citizens.
    The criminal organizations based in Mexico have matured 
from being merely a transportation agency for the Colombia 
organizations to become the dominant threat to the citizens of 
the United States. An example of one case on one organization 
on one subset of that organization, it is a group led by the 
Arellano-Felix brothers out of the Baja area of California, 
Tijuana, and Mexicali. They ship tons of cocaine into Los 
Angeles, Tucson, Chicago, Detroit, and Greensboro, NC.
    We were fortunate enough in the investigation to see some 
of their records. We found that this one group, in 90 days, had 
shipped 10 tons of cocaine into the United States and taken $90 
million in cash out of the United States back to their 
headquarters in Tijuana.
    Mention was made of methamphetamine. They not only control 
50 percent of the distribution of cocaine, they found that they 
had a drug that they could manufacture from the beginning, of 
which they did not have to share the proceeds with the criminal 
organizations from Colombia. We had a minuscule methamphetamine 
problem in this country until it was wide scale distribution 
developed from these criminal organizations.
    To give you a sense of the growth and the explosion of 
that, in 1991, emergency room admissions in this country for 
methamphetamine were 4,900. By 1997, the emergency room 
admissions had gone to 17,400. In 1992, the seizures along our 
border with Mexico of methamphetamine were 7 kilos. In 1998, 
there were 1,400 kilos seized. So we've moved from small 
motorcycle gangs and relatively low level usage to widespread 
distribution and manufacture from organized crime groups in the 
distribution in the United States and it spread from California 
to every State in the union except for, strangely enough, the 
northeast quadrant exclusive of the Philadelphia area.
    To give you an example of the impact in the middle part of 
this country, in Des Moines, IA, there are now more 
methamphetamine arrests than there are drunken driving arrests. 
In Marshalltown, IA, last year, a set of elected officials and 
teachers and police chiefs and sheriffs and county executives 
came to my office looking for assistance anyplace they could 
find it. A community that never had a drug problem now all of a 
sudden had a major methamphetamine problem. And they have a 
high school there. There's 1,600 students in that high school. 
Over one-third of those students have now tried 
methamphetamine.
    We have, in the course of our investigation, found major 
laboratories that are run by these criminal organizations that 
are in and of themselves very dangerous. We find that they 
build them and construct them in areas close to middle schools, 
in equestrian centers where young people are taking riding 
lessons, and all of them being driven by the heads of the 
criminal groups that are based in Mexico.
    There is an incredible amount of violence always associated 
with organized crime. These groups, like all of their 
predecessors, whether in the United States, Italy or Colombia, 
rely on violence as an essential tool of their trade.
    They use contract killers and brutal assassinations, and 
that is done for one reason, to intimidate. To intimidate the 
common citizen and to intimidate many public officials from 
providing witness information that is essential to arrest or 
prosecution. If these people are intimidated and do not provide 
us information, investigations will never be successful.
    It is not only limited to their activities as they occur in 
Mexico. We also are increasing experience in violence and 
threats by these same groups against U.S. citizens in law 
enforcement along the border.
    I mentioned in the beginning of my discussion the fact of 
what we are really dealing with is a powerful organized crime 
syndicate. And that is the key to understanding our 
adversaries, and it becomes much clearer and our strategies for 
dealing with it become more direct. For the first 70 years of 
this century, the primary drug of abuse in the United States 
was heroin and really heroin at a fairly low level of usage and 
low purity.
    Recently, in the presentation that Congressman Mica talked 
about, we did some research in Baltimore in the mid 1950's. At 
that point in time the population was 949,000 people and the 
number of heroin addicts was 300 to 350. The population of 
Baltimore is now 675,000 people and there are 39,000 heroin 
addicts.
    So the city of Baltimore, as for a heroin problem, has gone 
from 1 heroin addict for every 3,161 people in the 1950's to 1 
heroin addict for every 17 people in the 1990's. That heroin 
traffic was driven by organized crime.
    I have a chart up here of what it looked like then. The 
nexus and the command and control was, for the most part, in 
New York City. Those of you who have seen the movie the 
Godfather or looked at some of the arts and entertainment 
reconstruction of organized crime development in the United 
States would be familiar with that.
    The source of Europe was the so-called French connection. 
The major crime families would then arrange for the 
distribution of the heroin throughout the United States. And, 
really, it was in the halls of Congress and in the Senate that 
finally we became aware and moved from a state of denial on 
organized crime to a recognition.
    The hearings held in the late 1950's, especially by Senator 
McClellan from Arkansas, were key in being able to explain to 
the citizens of the United States how serious this problem was. 
Interestingly enough, if you go over those transcripts, which I 
have, you will find that the chief counsel for those hearings 
was Bobby Kennedy. He then moved from there to become Attorney 
General and implemented the types of investigative 
prosecutorial strategies that were essential to dismantling 
organized crime.
    And we have done, I think, a tremendous job in reducing 
organized crime to what it is today. I watched television the 
other night. They depict organized crime as Skinny Joe Morleno 
from Philadelphia as being the head of organized crime, 
supposedly, in the United States, who will have little or no 
impact on anybody outside of south Philadelphia.
    But if you look, and we see a change, the change occurs 
that despite those successes as we move from cocaine, we now 
find out that the nexus for organized crime in the United 
States is based in Colombia. They decided that they did not 
need any criminal organizations in the United States to set up 
their distribution or money collection. They established what 
we call cell structures. They went to major cities. They 
dispatched thousands of their own employees into the United 
States. The high level were trusted people. The low level 
people filled out work forms listing all of their biographic 
data so that they dare not testify and they dare not cooperate.
    From there they would collect the money and then they would 
distribute the drugs throughout the United States. They are 
still very powerful. They are still a great danger. But a great 
credit to General Serrano and the head of the Colombia National 
Police and his policemen, working with the DEA and other 
governmental agencies, they have been able to arrest all of the 
major organized crime figures and have now become very 
aggressive in a proactive fashion despite major difficulties 
that they face today.
    The picture of organized crime has now changed again, and 
the change is that the groups from Colombia originally entered 
into what they thought was a business arrangement with the 
organizations out of Mexico. And the groups from Mexico would 
transport the drugs for Colombia into the United States and 
turn it back over to Colombians for distribution in much like 
the previous chart.
    It wasn't long before that changed, and now we see two 
parallel organizations in the United States for organized 
crime, one based in Colombia, one based in Mexico. The group 
from Mexico becoming increasingly stronger, the strength of the 
Colombian groups tending to be diluted over a period of time.
    So there are some parallels between our experience in the 
United States with the Mafia and La Cosa Nostra and today's 
syndicates in Colombia and Mexico. However, there are some 
differences.
    The amount of money that these organizations in Colombia 
and Mexico make, the impact on the communities and citizens of 
the United States, the violence and the corruption associated 
with these groups that we see today are nothing like we could 
have ever imagined in the 1950's and 1960's. They make the 
traditional organized crime or Mafia in the United States look 
like grade school children compared to what they do.
    They have sophisticated intelligence systems. They have 
mansions, safe houses, planes, armored cars, security teams, 
encryption. Increasingly they use encryption to try to deflect 
what we do in the investigation.
    The one thing that is constant and will always be constant 
in organized crime has been pointed out in every Presidential 
commission and every congressional hearing. Organized crime 
cannot and will not exist without the collaboration of 
corrupted law enforcement individuals who protect the criminals 
and condone criminal activity.
    I have a very elaborate report on the major crime families 
that are in charge of this narcotics trafficking in my 
submission. Many of the key leaders that you see in that report 
in these organizations have been investigated continually 
within the United States, and we have been able to secure 
sufficient evidence to indict them. All that we need to do is 
to locate them and arrest them and bring them back to face 
justice between a jury of their peers of the community and the 
people they have injured.
    I have privately and publicly thanked the Attorney General, 
Mr. Medrosa, from Mexico and his staff for their arrest this 
year of Jesus and Luis Amezcua. That was a very significant, 
important arrest. Unfortunately, the judiciary in Mexico has 
dismissed all of the criminal charges existing in Mexico. The 
only remaining charges are charges of investigations conducted 
in the United States and we are still waiting for the outcome 
of the extradition process.
    The ability to deal with organized crime is, believe it or 
not, fairly direct. We have learned lessons over a period of 
time that these groups are not invulnerable.
    They can be dismantled. They are not held together by any 
political or religious philosophy. They are only held together 
by greed and corruption.
    We know that honest, hard working law enforcement officers 
and prosecutors can prevail. We have seen it in the United 
States. We have seen it in Italy. And we have seen it in 
Colombia. I also know from experience that if they are left 
unchecked, these drug lords and organizations will only grow 
more powerful and dangerous to the citizens of the United 
States and Mexico. The level of corruption, the level of 
violence that we see that they impact within Mexico will be the 
same strategy that they use in the border States and 
increasingly in the other States in the union.
    Finally, we have to recognize this as a long, difficult 
process. We have invested in the DEA millions of dollars and 
tremendous efforts on the part of DEA agents to develop 
cooperative relationships.
    However, honestly, these have had only limited success at 
present. Many of the joint ventures that we have established 
and begun to start have really been impacted by the fact that 
the traffickers are willing to spend hundreds of millions of 
dollars to corrupt law enforcement systems.
    In the past year, we have encountered a significant 
setback. The setback was a unit that a great deal of money was 
expended and energy into a special vetted unit so that we could 
share information in a sensitive basis for high level targets. 
We now have found out that significant people at senior levels 
in that unit appear to have been corrupted, which is a major 
disappointment to both the Government of Mexico and the United 
States.
    There are many varied opinions that you will hear on this, 
as I do. However, I believe there is one fact that cannot be 
challenged. That is that these major organizations, the leaders 
of these organizations, are inflicting tremendous damage on the 
citizens of the United States. I also have to tell you that 
they have become more powerful each and every year that I have 
held this job as head of DEA. And, unfortunately, very few of 
them have been brought to justice.
    I am often asked why I am so serious about this issue and 
why I am so direct. I believe it is important to note and to 
remember that every day and every night we are asking thousands 
of young American law enforcement officers to go out and to 
risk their lives to protect me, my family, and all of us from 
the danger of these powerful groups.
    Over the course of a 39-year career in law enforcement, I 
have lost a number of friends, classmates, coworkers, and 
subordinates who have been killed in the line of duty. Often 
that requires you to sit down with the mother or father or 
husband or wife and try to, in their trauma and grief, explain 
the significance of the loss.
    In the course of those conversations I am often asked, 
especially if it is related to narcotics, am I serious about 
this. Is the loss of their son, the loss of their daughter, the 
loss of their husband or their wife, sometimes their mother or 
father, has it been in vain or are we committed to somehow 
continuing this battle against the individuals responsible? I 
tell them I am serious.
    We are serious. We will continue with all of our energy. 
However, if there is a continued ability of the drug lords who 
are really causing these deaths to evade arrest, extradition 
and prosecution, I think it makes it very, very difficult to 
reassure these families of our seriousness.
    Thank you very much, Congressmen.
    [The prepared statement of Mr. Constantine follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.003
    
    [GRAPHIC] [TIFF OMITTED] T2540.004
    
    [GRAPHIC] [TIFF OMITTED] T2540.005
    
    [GRAPHIC] [TIFF OMITTED] T2540.006
    
    [GRAPHIC] [TIFF OMITTED] T2540.007
    
    [GRAPHIC] [TIFF OMITTED] T2540.008
    
    [GRAPHIC] [TIFF OMITTED] T2540.009
    
    [GRAPHIC] [TIFF OMITTED] T2540.010
    
    [GRAPHIC] [TIFF OMITTED] T2540.011
    
    [GRAPHIC] [TIFF OMITTED] T2540.012
    
    [GRAPHIC] [TIFF OMITTED] T2540.013
    
    [GRAPHIC] [TIFF OMITTED] T2540.014
    
    [GRAPHIC] [TIFF OMITTED] T2540.015
    
    [GRAPHIC] [TIFF OMITTED] T2540.016
    
    [GRAPHIC] [TIFF OMITTED] T2540.017
    
    [GRAPHIC] [TIFF OMITTED] T2540.018
    
    [GRAPHIC] [TIFF OMITTED] T2540.019
    
    [GRAPHIC] [TIFF OMITTED] T2540.020
    
    [GRAPHIC] [TIFF OMITTED] T2540.021
    
    [GRAPHIC] [TIFF OMITTED] T2540.022
    
    [GRAPHIC] [TIFF OMITTED] T2540.023
    
    [GRAPHIC] [TIFF OMITTED] T2540.024
    
    [GRAPHIC] [TIFF OMITTED] T2540.025
    
    [GRAPHIC] [TIFF OMITTED] T2540.026
    
    [GRAPHIC] [TIFF OMITTED] T2540.027
    
    [GRAPHIC] [TIFF OMITTED] T2540.028
    
    [GRAPHIC] [TIFF OMITTED] T2540.029
    
    [GRAPHIC] [TIFF OMITTED] T2540.030
    
    [GRAPHIC] [TIFF OMITTED] T2540.031
    
    [GRAPHIC] [TIFF OMITTED] T2540.032
    
    [GRAPHIC] [TIFF OMITTED] T2540.033
    
    [GRAPHIC] [TIFF OMITTED] T2540.034
    
    [GRAPHIC] [TIFF OMITTED] T2540.035
    
    Mr. Mica. Thank you for your testimony, and I am pleased 
now to recognize the Assistant Secretary of the Bureau of 
International Narcotics and Law Enforcement Affairs of the 
Department of State, Mr. Beers. You are recognized, sir.
    Mr. Beers. Thank you, Mr. Chairman, members of this 
committee.
    Thank you for this opportunity to testify before you on 
what is, as the chairman so correctly indicated initially and 
Mr. Constantine has so much further indicated, a very, very 
serious problem, both to the United States and to Mexico. I 
have a longer presentation which I would like to have submitted 
for the record.
    Mr. Mica. Without objection, so ordered. It will be made a 
part of the record.
    Mr. Beers. Thank you very much, sir.
    We have been through a process, our certification process, 
which began in December and continued through until the 
President's announcement on February 26th. We had 28 countries 
to consider--4 were given national interest waivers and 2 were 
decertified.
    We had 14 interagency meetings on this process at various 
levels. We had a unanimous recommendation of the four cabinet 
officials recommending from State, Treasury, Justice and 
Defense, as well as senior White House officials; and the 
President then recorded their views and certified or 
decertified or provided national interest waivers to the 
countries in question.
    The basis under which we made those decisions comes from a 
law which you all have passed and it states that we should 
determine that a country has fully cooperated with the United 
States or taken steps on its own to achieve full compliance 
with the goals and objectives of the 1988 U.N. Drug Convention. 
With respect to this language and the decision which we are 
asked to make under it, we have asked our lawyers to give us 
their views on that statute; and while the statute says, 
``fully cooperating,'' we have determined that this is not a 
rigid or unrealistic standard.
    First of all, achieving full compliance with all of the 
goals and objectives of the 1988 drug convention is an 
aspiration for all of our efforts, a goal that even the United 
States continues to pursue each year.
    As to fully cooperating, we look at several indications. 
First of all, we review the challenges facing a country. Then 
we ask ourself whether the government has the ability to meet 
those challenges, whether the government is genuinely trying to 
meet the bench marks that we jointly establish with them, 
whether the country's attitude toward fighting narcotics 
trafficking is adequate, and whether or not the government 
performance, in light of the overall situation, is adequate.
    It is on that basis that we make those decisions and on 
that basis that the President determined that Mexico was fully 
cooperating. He recognized that Mexico faces serious, very 
serious problems. Drug trafficking, transshipment, production, 
money laundering and corruption.
    In addition to the President's decision, I would ask that 
we submit for the record letters from the Governors of Texas, 
Arizona, New Mexico, and California, all of whom state that it 
is their belief that decertification would jeopardize existing 
and future antidrug and law enforcement relations between these 
two countries and indicating their full support for 
certification. I ask that these two letters be inserted in the 
record.
    Mr. Mica. Without objection, they will be made a part of 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.036
    
    [GRAPHIC] [TIFF OMITTED] T2540.037
    
    [GRAPHIC] [TIFF OMITTED] T2540.038
    
    Mr. Beers. Thank you, sir. This is not to say that we or 
the Government of Mexico do not acknowledge, as Administrator 
Constantine has indicated, the very serious problems that do 
exist in Mexico. In a recent presentation--both governments 
agreed on five major elements which very closely parallel 
Administrator Constantine's point.
    Serious crime in Mexico has nearly doubled in the past 7 
years. That crime is more organized and more violent than ever 
before. Law enforcement agencies within Mexico generally 
proceed without adequate resources.
    Those same law enforcement agencies also lack training, 
equipment, adequate salaries, and are, as Administrator 
Constantine indicated, extremely vulnerable to corruption. In 
addition to that, the courts also represent a problem. Their 
sentencing is inadequate to the crime, and there are not enough 
courts to deal with this problem.
    This is a presentation that was made to us by the 
Government of Mexico as they presented to us their recent 
counternarcotics initiative. So there is no difference between 
our two countries. There is no denial in either country that 
the problems in Mexico are serious.
    But we still continue to believe that Mexico is, in fact, 
fully cooperating. And let me try to indicate how we came to 
that decision. First and foremost, and I think there has been 
no disagreement among any of us, President Zedillo is fully 
committed personally to fighting drugs and to a strong antidrug 
alliance between the United States and Mexico. Senior officials 
in his administration--Administrator Constantine indicated 
Attorney General Medrosa as one. There are others as well--have 
a serious, long-term commitment that is real, vital and 
productive to cooperation with the United States and dedication 
to deal with the drug problem within Mexico.
    In addition to that, last year in February, the United 
States and Mexico concluded a binational strategy which 
represents the basis of an antidrug alliance between the two 
countries. Following up on that alliance, over the course of 
the last year, the Government of the United States and the 
Government of Mexico have developed what we call performance 
measures of effectiveness which were concluded this February 
after approximately a year's worth of negotiation.
    This commits both governments to looking at approximately 
80 indicators of performance that both countries will collect 
data on and then both countries will discuss how progress has 
been made along these indicators, where shortcomings have 
existed along these indicators, and how these performance 
indicators might show better in the year ahead.
    It is that embrace that countries who are both fully 
committed to cooperation would take. Countries that are in 
disagreement don't conclude this kind of agreement or don't 
conclude this kind of alliance. This is unprecedented in terms 
of cooperation between two countries, between the United States 
and any other country.
    In addition to that, the Government of Mexico, as I 
indicated earlier, has just announced a major counternarcotics 
initiative, approximately $400 to $500 million investment in 
law enforcement and infrastructure over the next several years. 
This is an announcement which was made public in February but 
was actually heralded by both a budgetary decision which their 
Congress passed in December and an earlier announcement in 
August.
    This particular effort includes, first and foremost, a 
significant expansion of the anticorruption activities of the 
Government of Mexico. They will expand the number of personnel 
who will be vetted. They will fully screen officials who are 
currently performing counternarcotics activities. They will 
establish oversight mechanisms to insure the continuing 
reliability of those engaged in counterdrug activities.
    There is no misunderstanding on their part about how 
serious the problem is. And as Administrator Constantine said, 
this is an action that is going to require years of work and 
they understand that and are not shying from that.
    In addition to that, they have also added state-of-the-art 
technology in airborne surveillance, high speed patrol boats, 
helicopters and mobile x-ray units that will also be added to 
enhance the capabilities of better paid, better equipped, 
better trained and more professional law enforcement officials.
    In addition to that, with that counternarcotics 
enhancement, Mexico now spends approximately 1.4 percent of its 
national budget on counternarcotics activities. That is, by way 
of comparison, larger than the 1 percent which the United 
States spends on its budget.
    That is the heart of the argument in favor of full 
cooperation. But in order that we talk about the full range of 
performance, because it is not a perfect performance, I would 
also ask your indulgence to go over the two charts which I gave 
to you earlier.
    First, we have this chart, which is an attempt to take our 
international narcotics strategy control report data and extend 
it back to 1986 so that you have 13 years of data. The first 
two points that I would make are on opium----
    Mrs. Mink. Mr. Chairman, may I ask unanimous extent that 
that chart be inserted in the record at this point?
    Mr. Mica. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.039
    
    Mr. Beers. Thank you. The first point that I would make 
refers to opium and cannabis cultivation. As you can see with 
respect to the 1998 column for opium, the amount of potentially 
harvestable opium has gone up from 1997 to 1998.
    I think it is important to look at this time series data 
over the entire range. We are disappointed, the Mexicans are 
disappointed, that the amount went up. It represents above the 
mean but not far above the mean for the entire time data 
series. Equally important to remember, because we are talking 
about cooperation and effort, the eradication. The effective 
eradication on the part of the Mexican Government, you can see, 
has also gone up.
    In fact, if you look at the time series data that effective 
eradication--and that's not information that we have taken from 
the Mexican Government. That is information which we have 
obtained by our own intelligence collection. Potentially 
harvestable crop has had effective eradication, which was 9,500 
hectares this year.
    In that context, it is important to remember that overall 
field size, as we have determined, has generally gone down. The 
amount of camouflage and intercropping has generally gone up. 
In addition, if you look at the cannabis production you will 
notice that that has generally come down over time. Eradication 
is up and down over that point in time. But the overall 
potential yield has come down, I think, significantly over that 
long-term time series.
    With respect to seizures, opium and heroin both are not 
very favorable this year. The opium gum is down. The heroin is 
up, but not significantly. This is an area that we and the 
Mexican Government, I think, need to do better on. Cocaine, as 
you correctly indicated, has come down significantly from last 
year.
    I think it is important to divide the time series into two 
large chunks of time. If you will go back to the time period 
from approximately 1989 to 1993, you will see quite large 
seizures. Those are the result of a cooperative effort between 
DEA and the Government of Mexico called the Northern Border 
Response Force, where we and the Mexicans, using helicopters 
that we generally provided, were able to interdict serious 
small plane incursion into northern Mexico.
    The traffickers changed their pattern of activity as a 
result of that, and we and the Mexicans have not adapted 
effectively to be able to seize the same levels.
    But if you look at the next 5-year time period, you will 
see, except for the spike in 1997, that we are talking about 
roughly the same overall performance level of cocaine seizures. 
With respect to cannabis, I think you can see that over the 
longer-term trend we are basically talking about a rising 
amount of cannabis seizures.
    With respect to methamphetamine, which the Administrator 
has described as an exceedingly serious problem for the United 
States, while we had a modest increase in the amount of 
methamphetamine seized this year, over the longer term time 
series it is nothing to speak of. What has happened that is new 
and different, and I believe important, is that Mexico has now 
also criminalized precursor chemicals.
    And for the 2-years of data that we have since they have 
undertaken this you will see that overall there is a rise in 
the amount of precursor chemicals that have been seized. With 
respect to labs, they are down over the most recent years and 
that is a cause for concern and something we should look at.
    With respect to arrests of nationals and foreigners, it is 
a relatively constant picture over time although there were 
some periods in which there were very high peak years.
    I would like to go from that data to the second chart which 
I handed out, which refers to extraditions. This is a very 
serious problem, a very serious issue, and one which I think it 
is important that we all understand.
    Mrs. Mink. Mr. Chairman, I ask that the chart be entered 
into the record.
    Mr. Mica. Without objection, that chart will be made a part 
of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.040
    
    Mr. Beers. Thank you. As Administrator Constantine has 
indicated and as our government has indicated, this is a 
serious issue and one which we care about a great deal and talk 
with the Mexican Government a great deal. It is important, I 
believe, as we look at this process to consider that it is a 
two-part process.
    The process as a whole generally involves the Mexican 
courts at a low level, first making a decision based on Mexican 
law that a Mexican national cannot be extradited. That decision 
by that lower court is then referred to the Foreign Ministry. 
The Foreign Ministry has an extraordinary power with respect to 
Mexican nationals to override that law and has done so in a 
number of occasions.
    What we have gathered here and what we are trying to depict 
and what I will now explain is, first, the number of 
extraditions that the Government of Mexico, the executive 
branch, has authorized and the number of individuals that the 
Mexican court system have allowed to be extradited, and the 
number of deportations which the Government of Mexico 
administratively has authorized to come to the United States.
    First, with respect to those who were authorized for 
extradition, I apologize we don't have data for 1995. We will 
try to update that. But if you look at that time series, you 
will see that the Government of Mexico as a whole has generally 
increased the number of individuals who have been authorized, 
and there have been Mexican nationals who have been authorized 
for extradition, including, as Administrator Constantine said, 
one of the Amezcua brothers.
    The Mexican courts have not been as cooperative, shall we 
say, or at least have been unwilling to extradite at the same 
levels that the government has been willing to authorize 
extraditions. And you see below, a lower level of extraditions 
that were actually effected, individuals sent to the United 
States.
    And as has been correctly noted throughout, although there 
are four Mexican nationals who have been extradited over the 
past 4 years, none of those individuals are major drug 
traffickers. There is one minor drug trafficker, but no major 
drug trafficker of Mexican nationality has been authorized for 
extradition. There was a major drug trafficker, Garcia Braggo, 
who was a dual national. That is the indication in the 1996 
column. Overall, there have been drug traffickers but they have 
all been foreign citizens.
    It is equally important, I believe, to also look at the 
deportations, which, as you can see, these are not Mexican 
nationals but they have risen over this timeframe. In addition 
to that, it is also important to note that we have, this year 
for the first time, two successful prosecutions under article 
IV of the Mexican constitution in which an individual who was 
denied extradition to the United States was successfully 
prosecuted within the Mexican court system and brought to 
justice.
    So while we do not have what we believe to be an entirely 
adequate system of extradition, we are at least seeing 
cooperation with respect to the government in the prosecution 
of some individuals who have not been extradited.
    In addition to that, we have the first money laundering 
prosecution after the money laundering laws have been 
established. We have vetted units that are coming on line. But 
that is not to say that this is a perfect record, and 
Administrator Constantine, I think, has made that case quite 
clearly.
    Particularly, we are concerned about the corruption that 
has been found in vetted units after they have been vetted. 
That said, those individuals have been moved to other 
assignments, perhaps not entirely adequate but at least out of 
the picture of working with us in those vetted units. Moreover, 
much of the information that we have is derived essentially 
from Mexican Government and law enforcement officials.
    We have two significant negative court decisions regarding 
extradition of criminals to the United States. Having said 
that, the Mexican Government has indicated to us that those 
decisions will be appealed. And we have, as I indicated 
earlier, the rising opium poppy cultivation, which expanded 
despite an increased effort. These are issues and areas of 
concern.
    But let me also come back for a moment and talk very 
briefly about the overall record in terms of trying to deal, on 
the part of the Mexican Government, with the senior levels of 
management of the various cartels which exist in Mexico.
    First, the Juarez or Carrillo-Fuentes organization, the 
chief of security, Noe Breto was rearrested this year. General 
Jesus Gutierrez-Rebollo received 14 additional years making his 
term of sentence 30 years for the corruption that he undertook 
on behalf of this cartel.
    Carlos Topillia, the reported founder of the cartel has 
received 27 years in prison for the result of his actions. 
Sixty-five members of the cartel have been indicted, although 
not yet arrested. And 111 cartel properties have been seized in 
1998.
    With respect to the Tijuana cartel or the Arellano-Felix 
organization, General Alfredo Navarro Larra received 20 years 
for bribery on behalf of the cartel. The two Arellano-Felix 
brothers have been formally indicted. Key security and money 
launderers have been indicted. The key lieutenant, Paez 
Martinez, has been approved for extradition. In the Sinaloa 
[ph.sp.] cartel or the Miguel Caro-Quintero cartel we have two 
key lieutenants arrested, R.C. Jucopo and Jose Soto-Soto.
    We have two outstanding provisional arrest warrants for 
Miguel and Rafael Caro-Quintero and the youngest brother, Jose, 
remains in prison under arrest.
    I think that in addition to that we have the Calima or the 
Amezcua Conteres cartel. The two brothers are arrested and 
remain in prison despite the dismissal by the Mexican courts of 
the Mexican charges, basically on the charges that we have 
brought against those individuals. Seventeen members have been 
indicted. The Addon Amezcua-Quintero, another brother has also 
been indicted for firearms violations.
    In addition to that, a member of the Colombian Calle 
cartel, who is a lawyer operating in Mexico, William Moran, has 
also been arrested; and that was done at our request. This is a 
mixed record, but we believe that in total, with respect to the 
issue of fully cooperating, we have a Mexican Government that 
is committed to cooperation with the United States.
    We have indications by that government of serious intent to 
do serious business and indications that they have done that 
serious business. They are waging independently and in 
cooperation with us, a serious counternarcotics effort. It will 
require time. It will require effort. It will require 
commitment, and it will require cooperation by the United 
States with that government to develop the mutual trust that we 
need to make over the time ahead.
    That concludes my presentation. Thank you very much for 
this opportunity to testify, and I would be happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Beers follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.041
    
    [GRAPHIC] [TIFF OMITTED] T2540.042
    
    [GRAPHIC] [TIFF OMITTED] T2540.043
    
    [GRAPHIC] [TIFF OMITTED] T2540.044
    
    [GRAPHIC] [TIFF OMITTED] T2540.045
    
    [GRAPHIC] [TIFF OMITTED] T2540.046
    
    [GRAPHIC] [TIFF OMITTED] T2540.047
    
    [GRAPHIC] [TIFF OMITTED] T2540.048
    
    [GRAPHIC] [TIFF OMITTED] T2540.049
    
    [GRAPHIC] [TIFF OMITTED] T2540.050
    
    [GRAPHIC] [TIFF OMITTED] T2540.051
    
    [GRAPHIC] [TIFF OMITTED] T2540.052
    
    [GRAPHIC] [TIFF OMITTED] T2540.053
    
    [GRAPHIC] [TIFF OMITTED] T2540.054
    
    [GRAPHIC] [TIFF OMITTED] T2540.055
    
    [GRAPHIC] [TIFF OMITTED] T2540.056
    
    [GRAPHIC] [TIFF OMITTED] T2540.057
    
    [GRAPHIC] [TIFF OMITTED] T2540.058
    
    [GRAPHIC] [TIFF OMITTED] T2540.059
    
    [GRAPHIC] [TIFF OMITTED] T2540.060
    
    [GRAPHIC] [TIFF OMITTED] T2540.061
    
    [GRAPHIC] [TIFF OMITTED] T2540.062
    
    [GRAPHIC] [TIFF OMITTED] T2540.063
    
    [GRAPHIC] [TIFF OMITTED] T2540.064
    
    Mr. Mica. I have questions for both of our witnesses, but I 
am going to yield for just a moment to the chairman of the 
International Relations Committee, Mr. Ben Gilman, who has 
joined us and who has a statement he would like to make. He has 
left a meeting to come here. And without objection, if I may, I 
would like to recognize him at this time.
    Mr. Gilman. Thank you, Chairman Mica.
    I regret that I was delayed in coming up and I am going to 
have to return. We are conducting a mark up on several foreign 
policy measures down on my committee. And I want to thank you, 
Mr. Chairman, for your leadership in holding this important 
hearing on the President's, what I consider, ill-advised full 
certification of Mexico in our common fight against illicit 
drugs.
    And I thank you for bringing two top notch panelists before 
us, Mr. Beers from our Department of State, and Tom 
Constantine, our DEA Director, both of whom have been highly 
instrumental in trying to formulate a more effective drug 
policy for our Nation. And I appreciate your long-time efforts, 
Chairman Mica, both in helping draft the original certification 
statute and working with me and so many others here in the 
Congress in trying to keep illicit drugs in the forefront of 
our foreign policy and our national security agenda.
    Several Presidents in the past have said drug trafficking 
is a national security problem and too often we forget that 
issue. Your understanding about how the annual drug 
certification came about is important for those who wonder how 
we got here in today's measuring of Mexico's performance. And 
we in the Congress for far too long have heard many good words 
and pledges about fighting drugs together.
    But very often, little concrete action was ever forthcoming 
for the major producer or source nations who often promise to 
help us. These very same producers are transit nations but 
also, of course, at the same time they enjoy the benefits of 
our taxpayers' largesse in the way of economic assistance, in 
the way of aid, trade, and multilateral loan guarantees and 
other benefits that we often consider as part of our foreign 
policy.
    Congress in 1986, I think wisely, combined the need for 
full cooperation in our efforts against drugs with the major 
producer or transit nations' right to access some of American 
taxpayers' largesse. The American people have overwhelmingly 
supported certification since that time, and I also noted with 
some astonishment just last April in a Wall Street Journal poll 
that 65 percent of the people in Latin America agreed with the 
American public in that approach.
    They also favored U.S. imposed sanctions on countries not 
doing enough to combat drug production and trafficking.
    I remember at a recent, not too long ago, conference in 
Atlanta arranged by former President Carter in which we were 
debating the drug certification process. And there was some 
question raised as to whether or not that was beneficial to our 
policy. I happened to sit next to the former President of 
Bolivia, who leaned over to me and he said, ``You know, if it 
wasn't for the drug certification problem, despite all the 
protests to the contrary, we wouldn't have passed very 
significant legislation in our parliament on asset seizures and 
money laundering.'' He said it has been a strong motivation and 
I certainly agree with that.
    The American people have been joined in support of 
certification by important groups such as the National 
Conference of Mayors and the National Narcotics Officers 
Association Coalition, and other police officials who daily 
face the brutal cost and the deadly consequences of the illicit 
drugs from abroad on the streets of communities of our Nation.
    Simple, straightforward, and most importantly, always 
seeking our assurances from these producers and transit nations 
like Mexico that besides words, the President would be able to 
say to the Congress, we are getting full cooperation in our 
drug war. No challenge, I don't think, is more important than 
this vital fight against illicit drugs, especially in our own 
hemisphere.
    Mexico is a neighbor to the south, an important neighbor 
and the gateway, regrettably, for nearly 60 percent--60 percent 
of the illicit drugs entering our Nation. And as good neighbors 
alone, never mind the multilateral loan guarantees they may 
receive from us, I think we are entitled to full cooperation 
and they to ours as well.
    We are doing our share here at home with billions spent on 
demand reduction and treatment as well as reducing supplies. We 
have also provided assistance to the Mexican authorities in 
many areas to help them do a better job in fighting drugs.
    I led the way when Mexico wanted to get its military more 
involved in fighting drugs in helping obtain 72 United States 
Army Huey helicopters for Mexico and were pleased--
incidentally, Mr. Beers, we thank you for your help in the 
recent initiative to provide Hueys for Colombia. The Colombian 
narcotics police force that has been pleading for them for many 
months now--and we welcome the opportunity that we are 
providing to them to help them fight the war.
    The ``fully cooperating,'' and that is in quotes, 
certification decision of Mexico's dismal record for 1998 
cannot and ought not stand unchallenged. The administration 
itself is now in the business of giving us mere words, not any 
evidence of any concrete deeds and action.
    We understand a resolution of disapproval has already been 
introduced and wisely, I note, with a national interest waiver 
so we give Mexico the failing grade of F that they deserve for 
performance in the war on drugs without any adverse economic 
consequences.
    I look forward to working closely with Chairman Mica in 
this area of disapproval in the days and weeks ahead. We need 
to sit down and we need to discuss our concerns with the 
Mexican Government. They are not apparently hearing what they 
need to hear from the administration.
    It was very nice of them to say they have gotten some new 
equipment, new radar instruments, that are going to help in 
spending $400 million in that direction, but that's not the end 
all and that's not the most effective thing they should be 
doing.
    And I welcome the statement this week of the minority 
leader, Mr. Gephardt, that he felt compelled--compelled to 
disagree with the President's certification of Mexico. This 
isn't partisan politics. It is about our young people. It is 
about our communities. It is about our national security.
    As I said yesterday at our own International Relations 
Committee hearing, the high level working groups that our 
Nation and the Mexican Government now routinely convene on 
cooperating and fighting drugs, and we are pleased they are 
doing that, are avoiding the reality and the poor record that 
is obvious to all of us. Perhaps the high attitudes of those 
working groups affected the judgment of the administration 
officials who recommended to the President--and they made a 
strong recommendation to the President and the President 
apparently relied on it--the totally unjustified decision to 
certify Mexico as fully cooperating in our common war on drugs.
    And I will try to be brief in closing. The facts are very 
different in Mexico. Drug seizures are down. No major kingpins 
have been extradited to our Nation. The administration admitted 
as much yesterday, even with all the charts and graphs in 
trying to paint the best picture. In addition, the Mexican 
Government has yet to permit our courageous, dedicated DEA 
agents that Mr. Constantine has been seeking to carry sidearms 
with full diplomatic immunity in the dangerous drug war, 
permission that virtually every other cooperating government 
has provided. The head of the DEA, our lead drug fighting 
agency--and I am pleased he is here--Mr. Constantine, and we 
call him a cop's cop, has called the corruption in Mexico the 
worst criminal threat to our Nation that he has ever seen in 
nearly 40 years of law enforcement.
    I ask unanimous consent that the hearing record, Mr. 
Chairman, include a column from today's Washington Post by Bob 
Novak. Mr. Novak has examined the DEA's Administrator's 
outstanding law enforcement record and is clear of unambiguous 
analysis of the situation in Mexico today, and he has 
concluded, as many have here in the Congress on both sides of 
the aisle, that the administration is also corrupting the 
certification process with this kind of full passing grade that 
it has provided to Mexico.
    Mr. Mica. Without objection, that will be made a part of 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.065
    
    Mr. Gilman. Thank you, Mr. Chairman.
    And in closing, let me say much more needs to be done. 
Congress is going to have to help lead the way. And I look 
forward to today's testimony and I will have an opportunity to 
examine it on the conclusion.
    I regret I am going to have to return to my International 
Relations Committee. But I want to thank you for this 
opportunity to appear and for giving me the opportunity to add 
my words to your important hearing.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank Chairman Gilman and look forward to 
cooperation of our two committees--subcommittees in this 
effort.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Mica. If I may, Mrs. Mink has a unanimous consent 
request.
    Mrs. Mink. Congressman Dennis Kucinich asked unanimous 
consent to have his opening statement inserted.
    Mr. Mica. Without objection, his statement will be made 
part of the record.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] T2540.066

[GRAPHIC] [TIFF OMITTED] T2540.067

    Mr. Mica. If I may, I would like to proceed with questions. 
We can get right into it, and if Members have a comment or 
opening statement we would be glad to insert them in the 
record.
    First of all, Administrator Constantine, Congress passed--
the House of Representatives did--several years ago, a number 
of requests of Mexico. I think six very specific requests, that 
we wanted to see some cooperation on. I think it is almost 
exactly 2 years ago, in March. Can you tell me, as I go over 
these, whether anything has been done or not, to your 
knowledge.
    First of all, a maritime agreement?
    Mr. Constantine. You probably have to ask the Coast Guard 
or the State Department.
    Mr. Mica. But to your knowledge, is there any progress in a 
maritime agreement?
    Mr. Constantine. I couldn't say one way or the other, 
Congressman. I am not familiar with the progress on that.
    Mr. Mica. Mr. Beers.
    Mr. Beers. We have begun over the course of the last year 
a----
    Mr. Mica. Has a maritime agreement been signed between 
Mexico and the United States?
    Mr. Beers. No, sir. We are in the process of----
    Mr. Mica. Thank you. Mr. Constantine, we asked for 
protection of DEA agents, another one. Has that been addressed?
    Mr. Constantine. Well, I have always publicly tried to 
avoid the levels of protection so that I don't increase the 
threat to any of the agents. But the issues involve the----
    Mr. Mica. Are they the same?
    Mr. Constantine [continuing]. The safety of our agents has 
not been resolved as of yet.
    Mr. Mica. Have we extradited one major drug trafficker? 
That was the third. You said no. Mr. Beers.
    Mr. Beers. Garcia Braggo, sir.
    Mr. Mica. One--Mr. Constantine, one major Mexican?
    Mr. Beers. He is a dual national, sir. Excuse me, I don't 
mean to mislead.
    Mr. Constantine. Not to my knowledge, Congressman.
    Mr. Mica. Thank you. We had also requested not only 
enactment of money laundering and corruption laws which were 
done at that time of our request. I think these were already in 
place. But we asked for cooperation on money laundering. Mr. 
Constantine, have they been cooperating?
    Mr. Constantine. It is my understanding that the law has 
been passed. We have not had any major investigations at the 
DEA.
    Mr. Mica. Casablanca, what did they do with Casablanca?
    Mr. Constantine. Casablanca was a Customs case, and I am 
not familiar with all the details with it, but I am aware of 
the issue.
    Mr. Mica. Did they threaten to indict our officials?
    Mr. Constantine. That is the report that I read, yes, sir.
    Mr. Mica. Radar in the South, has there been any progress 
on radar? Putting radar in the South was another thing that was 
specifically mentioned.
    Mr. Constantine. I am not familiar with that or what 
progress has been made.
    Mr. Mica. Mr. Beers, is there radar in the South?
    Mr. Beers. No, sir, not to my knowledge.
    Mr. Mica. Thank you. So in each of these areas we have seen 
almost no progress.
    Mr. Constantine, are the figures that we have, are the 
seizures down on heroin? Are the seizures down on cocaine?
    Mr. Constantine. The seizures, as reported by the 
Government of Mexico, on both heroin and cocaine are down, yes, 
sir.
    Mr. Mica. Now, you gave me this chart that I held up on 
production. Is the production of heroin up or down?
    Mr. Constantine. That's the signature analysis program.
    Mr. Mica. That is, I should say, production. And you are 
seizing this, and this is what you can identify in the United 
States seized and its source?
    Mr. Constantine. Let me give a little bit of context to 
that. There are three primary ways that we try to assess the 
source of heroin in the United States.
    One is the signature analysis program. The signature 
analysis program is, as you said, seizures usually at ports of 
entry. The drug is then sent to our special testing laboratory 
and we get the results that way.
    The second is what we call a domestic monitoring program, 
where we actually go out and buy heroin in selected cities in 
the United States and send that in for analysis.
    Mr. Mica. Are we seeing more Mexican produced heroin or 
less?
    Mr. Constantine. Yes, sir. That figure----
    Mr. Mica. More or less, sir?
    Mr. Constantine. More, sir.
    Mr. Mica. OK.
    Mr. Constantine. But to give you a sense----
    Mr. Mica. Methamphetamine, you said that they are 
explosive?
    Mr. Constantine. Well, there has been--in the United States 
we moved, in a 5 or 6 year period of time, from a very low 
level drug problem of the use and manufacture of 
methamphetamine to a substantial abuse problem. Within the 
United States there has been a change in the manufacture and 
the distribution system from the low level motorcycle gangs to 
major organized crime systems based out of Mexico.
    Mr. Mica. Mr. Constantine, is there a single Government of 
Mexico law enforcement agency which your DEA agency has 
complete trust and confidence in?
    Mr. Constantine. I would say, in working with the key 
people that I have worked with, Mr. Medrosa, Mr. Riberole, and 
Mr. Horan, I find them to be honest and trustworthy. The 
problem that they have and we have is that every major criminal 
investigation that we have conducted and that I know of, 
somewhere in the investigation involves a corrupt law 
enforcement official or systemic corruption.
    So it's--we limited our information to a very select group 
of people that we think we can trust.
    Mr. Mica. Mr. Constantine, am I correct that we have moved 
from corruption to a form of narco-terrorism? You cited the 
Baja peninsula. I also understand the Yucatan peninsula. Are 
these controlled by drug interests at this point and are there 
other areas controlled by drug interests?
    Mr. Constantine. I wouldn't define either of those areas as 
narco-terrorism. What I would say in both of the areas that you 
have defined is that the level of drug trafficking, the power 
of the organizations, and the corruption that is occurring 
within the systems makes it difficult, and obviously by virtue 
of the fact that none of them have been arrested, virtually 
impossible to apprehend.
    Mr. Mica. The situation has been reported out of control in 
the Yucatan peninsula particularly with the reports that the 
Governor there is closely linked to drug traffickers and 
because of connections with the government he may not even be 
subject to arrest. What is your take on that situation?
    Mr. Constantine. I believe you are talking about the former 
Governor who leaves office.
    Mr. Mica. Right.
    Mr. Constantine. I think there was an election that was 
held. That is an investigation that was conducted--is being 
conducted by the Government of Mexico. I would not comment in a 
public forum about elected officials in an ongoing criminal 
investigation.
    Mr. Mica. We will have an opportunity next Thursday. We are 
planning a closed briefing by you and others from the 
intelligence community on the situation. I just alerted the 
Members. Mrs. Mink and I had requested that and we are pleased 
that you are complying with that.
    Mr. Constantine, based on your knowledge of the law--and 
the law is pretty simple. I helped draft it back in the 1980's, 
a certification law--it says a country must be certified as 
fully cooperating. Based on your knowledge of the law--and I 
don't want a political answer. I don't want a diplomatic 
answer. You are a chief law enforcement--you are the chief law 
enforcement officer we have to rely on in this entire illegal 
narcotics area.
    Would you recommend certification or decertification of 
Mexico as fully cooperating?
    Mr. Constantine. Congressman--and this is not a diplomatic 
or political answer, but it is the answer that I have 
articulated ever since I have been in Washington. I don't think 
it is the role of a law enforcement official to evaluate 
somebody for a public or political policy decision like 
certification. So all that I do is I provide the policymakers 
who make those decisions with what the picture looks like, how 
the criminal organizations operate, and how we respond to them. 
And I have very carefully avoided that----
    Mr. Mica. Is the picture one of fully cooperating?
    Mr. Constantine. No.
    Mr. Mica. Thank you. I would like to yield now to the 
ranking member, Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. The testimony that you 
have provided this morning linking up the major organized crime 
families in Mexico with a distribution system within the United 
States is very terrifying and places a dual responsibility in 
your agency to not only help us understand the source issues 
within Mexico and how they are coming into the United States 
and where the control and corruption and trafficking is within 
Mexico, but also how that distribution system impacts our 
metropolitan areas and our cities and communities all over the 
country.
    So I see this as a dual challenge to your agency. And you 
have very, very accurately described the dilemma of trying to 
indict or arrest or apprehend these foreign connections that 
are within our cities.
    You indicated that many of them have been indicted but have 
fled and, therefore, the criminal justice system has not been 
able to bring them to trial and to so-called fulfill the 
justice responsibility; and that is very disappointing.
    I have a very strong interest in this field. Because I 
believe that the frustration of the American public is that 
they are not aware of the great efforts of your agency, because 
we don't see the whole picture and the connection with the 
source and with this whole discussion about certification, 
which I believe is interconnected.
    Now, following on the chairman's question, which you felt 
disinclined to respond to because the decision is not yours. It 
is something that all factors have to be put together and then 
the President makes his decision. But if the Congress were to 
decertify Mexico, may I ask you the question. What would be the 
impact of that decertification on the work of your agency?
    Mr. Constantine. It would be difficult to predict. It would 
be based in part, I suspect, on the reaction of the Government 
of Mexico. I couldn't predict--those places where we have 
looked at this historically, at least since I have been in the 
city, Colombia, I think, is the classic example.
    It resulted in increased cooperation and results and 
sharing of assets because of the reaction. That does not 
guarantee that there would not be a completely different 
reaction from the Government of Mexico. That, I think, is a 
question that we best ask to someone other than myself. I am 
not clairvoyant.
    By the way, you are very perceptive for a new person who 
has read this, as you explained, to understand our problem. Our 
problem is exactly that organized crime situation. Because we 
invest a tremendous effort and amount of money in seizing drugs 
and arresting key individuals, but where we wind up, 
Congresswoman, is we wind up with mid-level people who we can 
find as operatives in the United States but their bosses hardly 
ever come here for fear of being arrested or indicted.
    So whereas when Attorney General Kennedy had this approach 
of going after the leadership as the ultimate goal and we were 
successful, we are frustrated by the fact that the people we 
know are directing these operations literally, so far, are 
immune from sanction generally. So you have a very good grasp 
of what our problem is.
    Mrs. Mink. Now when you talk about having indicted some of 
these traffickers, you are not then talking about the top of 
the rung but the middle level?
    Mr. Constantine. No. We have arrested the middle level. We 
have indicted them and arrested them when we can find them in 
the United States. We have indicted the key leaders in the top 
of the organizations based on the things that they do. The acts 
they commit are part of a conspiracy within the United States. 
Those are the individuals who so far have been immune from 
sanction.
    Mrs. Mink. Now is it possible for you to submit to the 
committee a list of these high level traffickers that you have 
indicted?
    Mr. Constantine. I could give them to you by name and by 
rote. I know them. We all know them. They are written on our 
minds indelibly.
    Mrs. Mink. If the committee would indulge me, we have that 
in the record right now. It is something that I am very, very 
much interested in having in the record.
    Mr. Constantine. The two key people from the Arellano-Felix 
organization that control the whole Tijuana, Mexicali 
distribution system up into the West Coast have both been 
indicted.
    Ramon Arellano-Felix is a top 10 fugitive in this country 
for the last 2 years. You have Rafael Caro-Quintero. He is in 
prison in Mexico in relationship to the murder of a DEA agent 
in the mid 1980's but he is still wanted here for crimes. 
Miguel Caro-Quintero, who Mr. Beers mentioned, of the Sinaloa 
group--to give you a sense of our frustration, he has been 
indicted again and again.
    And when I mentioned his name as a potential target in 
Mexico City a little over 2\1/2\ years ago, he called a radio 
station to accuse me of slandering his reputation and said that 
he had routinely driven through police roadblocks and military 
roadblocks and was never challenged despite my comments. He 
then, a year later, gave an interview with the Washington Post 
about the same issue. He is a leader of a major organization.
    We have Vicente Carvillo-Fuentes, the brother of the famous 
Carvillo-Fuentes organization, Eduardo Gonzalez-Quirarte, Oscar 
Majerbe. Arturo Paez-Martinez, who Mr. Beers mentioned, has 
been arrested but we are awaiting extradition. Jaime Gonzales-
Castro, Jaime Ladino-Avila, Jose Gerardo Alvarez, William Brian 
Martin, Miguel Angel Martinez-Martinez.
    These are all key figures, including the two Amezcua 
brothers, who are key. And I give great credit to the 
Government of Mexico for their arrest. But their extradition 
and return to the United States would be a major asset for us 
in these investigations. And there are a number of others and I 
will submit them on the record for you.
    Mrs. Mink. You spoke in your testimony about the personal 
danger that many of the DEA agents are constantly under. I 
would like to ask you what personal dangers are you under as 
the person leading this agency?
    Mr. Constantine. Well, I don't know. From time to time, 
obviously, there are people who would say it is dangerous. But 
I have been doing this for 39 years. Perhaps I am fatalistic 
and don't play the threats too low. I carry my own firearm and 
protect myself, as I have for all of those years.
    I suspect the more I testify about these people, the more I 
explain who they are and the bigger danger they are to the 
United States, the greater danger perhaps I raise for myself. 
But I am more concerned about the people who work for me and 
who, as I mentioned in my conclusion, night and day are willing 
to protect us.
    And many of them get killed in the line of duty, and the 
seriousness of that, and how serious we have to be to go after 
the leadership. I have two sons of mine who are in law 
enforcement. I probably worry about them more than I worry 
about myself.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. I am pleased now to recognize for questions the 
gentleman from Arkansas, Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman, and I appreciate 
both Mr. Constantine's and Mr. Beers' testimony today.
    Let me followup with a very important line of questions 
that have been asked, which relate to extradition. It is 
probably the most critical weapon that we have in dealing with 
the foreign nationals who impact our drug importation into the 
United States in such a heavy degree.
    As has been pointed out, the Government of Mexico has 
approved extradition in a number of cases but it has been 
blocked to this point by the judiciary.
    First of all, Mr. Constantine, what is the impression of 
the judiciary? There has been corruption in the mid-level law 
enforcement branch in Mexico. How does the judiciary handle the 
potential of corruption? Is bribery a problem in the area of 
the judiciary?
    Mr. Constantine. I'm not an expert, Congressman, on the 
judiciary or their corruption issue. There have been 
significant cases where certain traffickers have been released 
and there have been serious allegations of corruption on the 
part of the judiciary and significant bribes that were 
supposedly paid for their release. But that's all second-hand 
information for me.
    Mr. Hutchinson. Mr. Beers, do you have a comment on that?
    Mr. Beers. Yes, sir, I do. I would support what 
Administrator Constantine said. There have certainly been 
reports of bribes. The Mexican Government has expressed concern 
to us about this particular issue. Whether or not there was a 
specific bribe associated with a specific extradition case, I 
do not have hard evidence to that.
    But I think there is general agreement that it is a 
problem. The Mexican Government has recognized this problem, 
also, as I have said; and it has created the National Judicial 
Council, which is trying to reform the court system. But they 
have a long way to go.
    Mr. Hutchinson. Well, I have traveled to some of the South 
American countries and listened to some of their leaders, and 
unless you have an honest judiciary you cannot maintain the 
integrity of any law enforcement system. And it is important 
that the Government of Mexico take steps in that direction.
    Extradition is very, very important. And it is one thing 
for the government to approve it, and it is another thing for 
the judiciary to block it where the laws are in place to 
accomplish that.
    Mr. Beers, you have mentioned the letters from the 
Governors that you put in the record, and I have respect for 
all those Governors. But are they not addressing the stability 
issue--in regard to our relationships with Mexico? And that 
really does not bear on the issue of whether the government is 
fully cooperating in the drug war, is that correct?
    Mr. Beers. Sir, I think the letter discusses stability as 
well.
    Mr. Hutchinson. That is my point. The letters do address 
the stability issue. And for that reason, to me, that goes to a 
national security waiver. To me, the issue surrounding the 
certification process is whether they are fully cooperating. It 
is an objective standard that could be measured. You have put 
attitude in there as an important part of it, but to me it is 
more of an objective issue.
    And if they are not meeting that objective standard, then 
we should grant them a national security waiver for the purpose 
of stability. And I think that might be the point that the 
Governors are making.
    I know that in reference to Colombia, you know, they were 
denied certification and they worked extraordinarily hard in 
order to be granted some assistance the next year and were 
granted a national security waiver. Was that not beneficial the 
way that we handled this with Colombia, Mr. Beers?
    Mr. Beers. I would agree with Administrator Constantine. I 
believe that the initial decertification of Colombia based on 
the corruption at the highest levels of the Government of 
Colombia, in fact, was appropriately determined and I think 
beneficial in overall terms, in terms of that government's, in 
particular that police force of that government, taking 
extraordinary efforts on behalf of that country and the world.
    As with Administrator Constantine, I also believe that that 
is not necessarily a predictor of what the Mexican Government 
reaction would be, and I can't tell you either what exactly the 
Mexican Government reaction would be.
    Mr. Hutchinson. Certainly that would be the case. But, you 
know, we should first follow the law very carefully and trust 
the wisdom of that law and respect that. And then, I think that 
even though it might not be protectorate, certainly I think it 
worked very well in regard to Colombia.
    And I think that they are moving in the right direction 
because of the stand that we took and the compliance with the 
law.
    Let me ask the question, again, to Director Constantine. In 
justifying the certification of Mexico, the administration has 
touted the Mexican Government's arrest of the Amezcua 
brothers----
    Mr. Constantine. Amezcua.
    Mr. Hutchinson. Known as the kingpins of methamphetamine. 
It is my understanding that all the drug charges against those 
three have been dropped and they remain in prison pending the 
resolution of the U.S. extradition warrants. Was there a trial 
for these men?
    Mr. Constantine. I don't know what the judicial proceeding 
was, but it was found that they were not prosecutable in Mexico 
on the violations. Whether it was a lack of evidence or it was 
how the evidence was gained, the charges were all dismissed.
    Mr. Hutchinson. Are they still in custody?
    Mr. Constantine. Yes, sir.
    Mr. Hutchinson. Pending the disposition?
    Mr. Constantine. Pending the--one of them, I think it is. 
Jesus, is pending extradition to the United States. But both 
Jesus and Luis have pending charges in San Diego.
    Mr. Hutchinson. Is there any evidence that these 
traffickers continue to operate from their jail cells?
    Mr. Constantine. Not to my knowledge, Congressman.
    Mr. Hutchinson. Is the prison system becoming more stable 
in terms of reducing the amount of corruption?
    Mr. Constantine. I'm not an expert on their penal system. I 
just couldn't comment on it, to tell you the truth.
    Mr. Hutchinson. And finally, because I know we have a vote 
that is going on, are there any mandatory minimum sentences in 
Mexico for drug traffickers or for possession of drug 
substances like we have in the United States? That has had such 
a beneficial impact in our country.
    Mr. Constantine. I'd have to get back with you. I'm not 
aware of that myself.
    Mr. Hutchinson. Do you know, Mr. Beers?
    Mr. Beers. Nor am I, sir.
    Mr. Hutchinson. So, I mean, you recited somebody got 20 
years. Do we know what that means? Does that mean they get out 
in one-sixth the time? Is there a mandatory period of time? Do 
they serve 20 years? What does that mean?
    Mr. Beers. Sir, I have to get back to you. I don't have the 
precise answer on that. But I would acknowledge, as did the 
Government of Mexico, that their sentencing system is 
inadequate with respect to the crimes. They have told us that, 
and they are looking to try to deal with that problem 
themselves.
    Mr. Hutchinson. I think we ought to look into that, because 
it is not just sentencing but also how long they serve and what 
happens after that and whether we should encourage, you know, 
the use of mandatory minimums, more control over the sentencing 
process, more direction in that regard. And I thank the 
chairman.
    Mr. Mica. I thank the gentleman from Arkansas.
    I would ask our witnesses to remain, if they can. What I am 
going to do is recess the subcommittee for 15 minutes, 
approximately. We will try to reconvene at 12:50 and I will 
give you a quick break. We do have Members that have additional 
questions and we will try to expedite those upon our return. 
With that, this subcommittee stands in recess.
    [Recess.]
    Mr. Mica. I would like to call the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources back to order.
    I am pleased at this time to recognize a gentleman who I 
have had the pleasure of working with as ranking member of the 
Subcommittee on the Civil Service when I chaired that 
subcommittee, and a gentleman who has very eloquently stated 
how the narcotics problem affects not only the Nation but 
specifically the area that he represents and that we have heard 
references to today, Baltimore. The gentleman from Maryland, 
Mr. Cummings, you are recognized, sir.
    Mr. Cummings. Thank you very much.
    Mr. Chairman, I appreciate your comments, also. I must tell 
you, Mr. Constantine, your answer to a question a few moments 
ago really touched me when you talked about your life and your 
concern about the men and women who work for you. And I can 
only say that I am sure everybody up here feels the same way.
    We really do care about the men and women who put their 
lives on the line every day to make our world a safer place, 
and I hope that you will express that to them on behalf of our 
committee, that we do appreciate what you do and what they do.
    Mr. Constantine. Thank you.
    Mr. Cummings. I must tell you that I have a lot of concerns 
about whether Mexico should have been certified. Because as the 
chairman said, drugs affect my community probably as much as or 
more than any community or district in the United States. When 
I go home, I literally sleep in fear; because I am surrounded. 
My block is surrounded by folks who seem to deal in drugs 24 
hours a day. So this is a very personal thing for me. And I 
wish everybody had cable TV so they could hear some of this 
testimony.
    A lot of people, I don't even think they comprehend--I'm 
talking about good people, good, hard working people. The 
question that we get constantly is, well, what is the 
government doing about the drug problem? There are no boats or 
planes that the people in our neighborhood own. So how are 
these drugs getting in the country? And I wish they could hear 
and understand how massive and difficult these problems are.
    When we talk about corruption, I think it is very difficult 
to penetrate it. But I think someone--I think it was Mr. 
Hutchinson or the chairman said something that I agree with. I 
can't think of too many other methods to get deep into 
effective corruption fighting than certification. And that 
leads me to my first question to both of you.
    I mean, it seems as if the certification process--and I 
understand everything you have said about opinions, about 
governments. I understand that, and I respect that. And if I 
cross that line with my question, just let me know; because I 
certainly don't intend to.
    But I am wondering, here we are. We sit, of course, as a 
Congress to the United States representing the people, and we 
have this problem which affects so many Americans. And I think 
we are always trying to figure out how we can be most 
effective.
    I was just wondering of both of you, do you--I mean, the 
certification process is one thing. Can you think of any other 
ways we can kind of force governments or push them into greater 
cooperation? Without even--I am not even getting into whether 
Mexico is cooperating fully. I have my opinion on that--but I 
am just wondering if you all can see any way?
    Because when I think about the corruption process, when you 
have threats of death and violence and then you have money, big 
money, being used, those are two very significant forces.
    So I was just wondering if you all had any opinions as to 
other things that either the Congress could do with regard to 
making the certification process even stronger or more 
effective? Or is there something else that we can do?
    Mr. Constantine. I think probably Mr. Beers would be better 
to talk about the process.
    But let me explain to you a little bit about something that 
I think is important to note and I did earlier. These 
organizations that we deal with are not invulnerable. I have 
seen this again and again. They can be broken down. They can be 
brought to justice, and you can change the situation. There is 
not an infinite number of them.
    In those countries who have experienced this before, the 
United States being one of them, Italy, Thailand, Colombia, a 
select group--and it doesn't have to be an army of them--of 
very honest, courageous people in law enforcement leadership 
positions, with support, start to make the appropriate arrests 
of the key individuals, which sends a signal to the citizens 
that law enforcement can be trusted and that they can then 
provide information and witness information to honest, 
aggressive law enforcement officials.
    In some cases--and you can kind of picture this in your 
life--those honest law enforcement officials appreciate some 
type of pressure from an external source to help change the 
situation. Now whether that is certification or decertification 
or what other processes are out there--I don't know, 
Congressman, I think it is one--trying to support those people 
or individuals who are in there in a cooperative or bilateral 
fashion for as long as you possibly can.
    And if at the end of all of that effort that is not 
effective, then I think, speaking as a citizen rather than the 
head of DEA, that we have to do something as a Nation to insure 
these people are brought to justice.
    I spent 8 years working for Governor Cuomo at the height of 
the crack problem in New York City and New York State. I can 
remember his speeches to this day, and everybody knows that he 
is a great speaker. But this one I remember. He would say, 
``They don't grow coca in the Bronx. They don't grow opium 
poppies in Brooklyn. These drugs are manufactured from 
someplace else and distributed from someplace else,'' and that 
we needed assistance at that time from the Federal Government 
in dealing with these issues external to the United States.
    Now what that process would look like, there's a lot of 
people with better experience than I have in this and may know 
of previous negotiations. But I think there comes a point in 
time where crime leaders or leaders of these drug gangs who 
visit tremendous devastation to Baltimore or New York or to 
Newark or Boston, or whatever the city or town might be, have 
to pay a price for what they have done, or else the law 
enforcement system has virtually broken down completely. But I 
think Mr. Beers might be better able than I to talk about 
certification and alternatives.
    Mr. Beers. Thank you, Tom. I generally agree with what Tom 
said, and we were talking about this over the break, that both 
of us would agree that there is no single silver bullet 
solution to this.
    But I think we also both agree that a system which will 
allow a government or governments to go after the leadership of 
trafficking organizations represents one of the premier policy 
choices in terms of dismantling and disrupting the largest 
trafficking organizations, and that it doesn't have to be a 
large army that does it. A small unit can do it.
    But, then, that country has to have, also, I think, a 
criminal justice system that can also take the product of the 
work of that unit and turn it into the completion of the 
process. Which is to incarcerate those individuals and to take 
away their ill-gotten gains and give them back to the people 
who were hurt or the law enforcement officials who are paid to 
protect them.
    I would add to what Tom said, and I don't think he would 
disagree with this, that in addition to that--and that's a 
national solution--we are absolutely dependent upon 
international cooperation. These criminals don't honor 
international boundaries. They move across them. We are 
sometimes thwarted in our ability to be able to respond 
effectively, because we all still exist in a world as 
government officials in which borders do have meaning. And DEA 
and other organizations, just in this country, are looking at 
those problems. We are not by any means there, yet.
    The third thing I would say in that--and it is in support 
of the international cooperation. And I spoke about it with 
respect to Mexico, but it is also not unique. And that is, in 
that form of international cooperation, the ability to sit down 
with one's counterpart, look at the problem, describe the 
problem accurately, look at the policy options for solutions, 
talk about what the objectives are, talk about what progress 
has been made, and then talk about where deficiencies were and 
where other things might be done better.
    We are starting that process with Mexico. We are a little 
further behind in the hemisphere, but that is also an effort 
that has come out of the Summit of Americas in the Hemisphere.
    None of this is going to solve the problem overnight. The 
corruption that Tom talked about is very serious. And Italy's 
ability to deal with that took how many years, Tom?
    Mr. Constantine. Ten or fifteen years.
    Mr. Beers. So Mexico is at least indicating to us how much 
they recognize the problem and that they are committed to doing 
something about it. Now we have to allow them to get on with 
doing it and support them in doing it, and hopefully we'll have 
the same results and hopefully in a shorter amount of time.
    Mr. Cummings. Just one other question. You know, I was 
listening to you and Mr. Beers talk about extradition. You 
know, I couldn't help but think about this case in Maryland 
that upset so many of us with Israel, the young man who 
allegedly committed murder in Montgomery County, which is not 
very far from here. And we were very upset about that.
    But when I thought about it, I thought about the five-judge 
panel that said in a 3 to 2 vote that the laws just would not 
allow them to grant the request of the United States. I said to 
myself, I said, ``Well, those are the laws of that country and 
I guess we just have to live with them.''
    Do you in this situation--I mean, do you feel that when it 
comes to extradition that there is some unfairness with regard 
to Mexico? I mean, I'm just curious. In other words, do you 
think that it is weighted against--either one of you--against 
the United States?
    Mr. Constantine. Let me say, and I have to make this clear, 
that the biggest problem for us is the key figures are never 
arrested. I mean, it never gets to an extradition question.
    Mr. Cummings. They don't even get to that point?
    Mr. Cummings. Because the key leaders in these 
organizations are very seldom ever arrested. And the reason 
they are not arrested is that they have either intimidated the 
witnesses or they corrupted the public officials.
    Then once arrested, and if their charge is pending in the 
United States, as there are for many of them, then there would 
be a test of the extradition process. And there is one key 
individual who begins that process over the last several 
months, one of the Amezcua brothers. We will see how that works 
out.
    But more important to me as a law enforcement official 
trying to deal with a major crime organization, when the 
leaders can continually, year after year after year, despite 
their names being mentioned, identified every place in the 
world, can avoid even a simple arrest by virtue of the fact 
that they drive around, Congressman, in a convoy of 50 to 80 
heavily armed people.
    A significant number of those heavily armed people are 
policemen, which means that a small group of honest law 
enforcement officials who try to make an apprehension are 
placed in great jeopardy.
    We had in the Tijuana area this year, where a courageous 
captain from the city police department tried to make an arrest 
of a major marijuana shipment and was shot and killed, and two 
of the people who were involved in the convoy for the load of 
marijuana, who were involved in the killing of the captain, 
were highway patrol or State police officers from that area. 
And that's kind of the sense of the difficulty of the 
apprehension.
    Mr. Cummings. Thank you.
    Mr. Mica. I thank the gentleman from Maryland. I am pleased 
to recognize the gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thank you very much.
    It is good to see you both again, and I want to thank you 
both for your efforts. I have a number of questions. I know the 
corruption issue is very difficult. In fact, it is not even 
clear that in the United States we don't have more cabinet 
members and former cabinet members under investigation right 
now than Mexico, which is a troubling figure, not for 
narcotics, however.
    One of the questions that I have regards directly this 
question of the impact of decertification. I thought I'd ask 
Mr. Beers first. Do you know of any country that we have 
actually decertified where there has been less cooperation 
after that? In other words, some haven't cooperated. If they 
were uncooperative, they continued to be uncooperative. They 
didn't all become more cooperative. But is there anybody who 
has become less cooperative after we have decertified?
    Mr. Beers. I don't think it is fair to say that Burma has 
been any more cooperative since they have been decertified over 
the process. We had formerly a good cooperative relationship 
with previous governments in Burma. But since they have been 
decertified, they have shown no indication of a greater 
willingness to cooperate.
    Mr. Souder. Any country other than Burma? Because we 
decertify anywhere from three to six in given cycles.
    Mr. Beers. I would also add that Nigeria has not shown any 
further cooperation during the period in which they were----
    Mr. Souder. Were they cooperating prior to that?
    Mr. Beers. Excuse me?
    Mr. Souder. Was Nigeria cooperating prior to that?
    Mr. Beers. I am sorry. I just don't have the information 
about that.
    Mr. Souder. Because it doesn't always have a positive 
benefit. But in trying to anticipate whether it has a negative 
benefit as well--or a negative result.
    Mr. Constantine, I know from having talked with some of 
your agents in Southeast Asia that they, too, are concerned 
that Burma, which was human rights certification not narcotics 
cooperation decertification said--do you know any other case 
other than--I guess it is Myanmar rather than Burma--besides 
that country where we have actually gone backward if we 
decertified? In other words, what is the risk here based on 
past experience that decertifying Mexico would have a negative?
    Mr. Constantine. The only country that I think that has had 
a direct impact on drug trafficking within the United States 
and was decertified was Colombia. The reaction in Colombia as a 
result of the decertification was positive. And in my sense of 
talking with people in law enforcement and other aspects of the 
community, they saw the pressure from the United States as 
supportive when they were in a difficult situation. But that's 
the only--I take, first of all, the nexus of a country that 
impacts us greatly. I have only been here 5 years and that is 
the one that stands out significantly.
    Mr. Souder. Mr. Constantine, didn't decertification not 
long ago result in one of your brave DEA agents, in fact, being 
released as part of the pressures of this process? I didn't say 
a country or anywhere but, in fact, there was a very practical 
impact on your agency?
    Mr. Constantine. Well, there were a lot of people who 
played a major role in that. I think his name is Interforth, 
from the State Department, was fantastic, as well as the 
Ambassador, in fighting for us.
    Congressman Gilman was special in that he very early took a 
very public stand and was very, very supportive of us. And I 
think combining that, the comments that I heard that it would 
be difficult to say that they are fully cooperative on a 
certification process if a DEA employee, a national, who was 
doing a drug investigation, was incarcerated for their efforts. 
And that is kind of my memory of how it all played out. And 
thank God from everybody's efforts it was successful and he has 
been released and is in the United States.
    Mr. Mica. Mr. Souder, if I could intervene for just a 
moment. I am asked to chair another committee hearing right 
now. I have additional questions for both of the gentlemen. I 
will ask them in writing and also will direct some questions to 
Mr. Constantine next week in a closed session. I turn the chair 
over to you and I will try to return as quickly as possible.
    If you would introduce our second panel when you conclude 
and recognize anyone from either side, I would appreciate it.
    Thank you.
    Mr. Souder. OK, thank you.
    Mr. Beers, one of the things as we go through the 
decertification debate that--I am sorry. I missed both of your 
testimony and I am not sure if you gave this verbally. But in 
the written document there are a lot of things that trouble me. 
Because we just spent 3 days down in Mexico, met with a lot of 
the leaders.
    I think that at the top, just like 4 years ago when I was 
there and met with President Zedillo, I think at the top there 
is a commitment. And one of the fundamental questions of this 
commitment is, are we strengthening those who are trying to 
clean up the system or weakening those who are trying to clean 
up the system?
    Let me first ask the question. When we decertified Colombia 
they, in fact, continued to ship flowers and coffee into our 
country. Don't they? In other words, it doesn't end all trade.
    Mr. Beers. That is correct, sir.
    Mr. Souder. And we continued to ship antinarcotics things 
to the Colombian national police, in other words, vetted units 
and so on. It isn't like it suddenly stopped?
    Mr. Beers. Counternarcotics assistance and humanitarian aid 
are not cutoff by decertification, yes, sir.
    Mr. Souder. And it doesn't end all trade?
    Mr. Beers. No, sir, it does not. Although there is a 
provision which could be implemented which could have some 
trade impact. It is a separate provision by another law.
    Mr. Souder. And while many in Congress who are not 
necessarily big boosters of NAFTA might like that, that is not 
likely to be a result. This isn't a straight NAFTA question of, 
if all of a sudden Mexico were decertified that NAFTA is over?
    Mr. Beers. That is correct, sir.
    Mr. Souder. It would be optional whether you did 
additional?
    Mr. Beers. That is correct, sir. It is a separate decision.
    Mr. Souder. One of the things that bothers me, because I am 
listening to the Foreign Minister, the Attorney General, the 
Interior Ministry, as well as the President seem to be 
committed. We have met with Members of Congress and the Senate. 
But in your document here you have a whole series of things.
    For example, there are a lot of laws that they submitted to 
Congress but none become final. The Attorney General, I know, 
told us that part of the process that he is trying to follow 
the law but now it takes a number of years to pursue the 
extraditions. But in your document you also point out that they 
have this problem with the lifetime imprisonment clear, so it 
is not clear how extradition is going to actually work.
    We, in our House decertification in the past, have had the 
maritime agreement, but they told us that we have never 
actually made an official request to them to sign the maritime 
agreement.
    In here, you say in 1998, they uncovered evidence of 
corruption in special vetted units that were specially created 
to avoid corruption, which we didn't even have in Colombia. 
This is a new variable. Why wouldn't we at least, in an interim 
basis, not restricting the trade portions necessarily, say we 
appreciate that in February of this year you have some more 
initiatives.
    We appreciate that you started some initiatives last year, 
but some minimum criteria here, like we go a year without your 
special vetted units being compromised.
    There was one line in here that says, ``to fight against 
corruption a new national registry of public security personnel 
was used to match active duty police against those persons who 
had judicial proceedings pending against them.'' Boy, that is a 
pretty basic thing that should have been being checked about, 
oh, 30 years ago.
    Why wouldn't we have--not implying that they don't have 
their motives correct--but use this as a leverage, like we did 
in Colombia and like the administration did in Colombia, to say 
we want to see specific progress in your courts, specific 
progress in your legislature that you are actually moving 
things, that we are seeing specific progress on the actual 
extraditions as opposed to your starting the process.
    Mr. Beers. Sir, we do that and we have made some progress, 
and we believe that this year's certification decision is based 
on some of that progress made. And we also believe that we have 
set up mechanisms that will allow that process to increase 
further over time. I spoke briefly at the beginning about these 
performance measures of effectiveness.
    One of the purposes of this particular process is for both 
countries to develop an awareness of what is going on in each 
country, to talk about the objectives, to talk about the 
milestones to achieve those objectives, and then come back 
after a time period. We will come back at this in September and 
see what progress has been made and talk about a constructive 
criticism or cooperation which can improve that even further.
    So I take your point to heart, sir, and we are trying to do 
that. And I do believe that is why we have made this decision 
this year in order to fully certify them.
    Mr. Souder. I believe--I mean, I heard the presentation of 
that document and I do believe that not only Mexico but other 
countries are recognizing that they have a domestic problem as 
well as an international one, just like we have to do more on 
demand reduction.
    At the same time, we clearly heard last week from the 
Foreign Minister this frustration that they aren't being given 
specifically the things on the decertification. And my other 
point regarding your comments is that a lot of what is in that 
document is regarding process.
    In other words, if you introduce a bill rather than 
standards that the bill has been done, and because I agree with 
you one sign of good will is that a process starts. Another 
sign is actual results.
    I also want to take--I will ask the chairman briefly 
whether this is in order--yes, it is. I am the chairman right 
now--and since I raised Colombia I actually have a question 
regarding Colombia. You and I have talked about Black Hawks 
until we are both blue in the face and Huey helicopters until 
we are blue in the face. And we are happy that we actually have 
six Black Hawks going to the Colombia National Police. I think 
we are starting to see the progress on the Huey upgrades.
    When we met with people from your department and elsewhere 
in Colombia, I was concerned because I raised this question of 
the guns on the Black Hawks and making sure that they had the 
best they got, 19's rather than the M-60's, and would like to 
continue to point out that when we have spent this amount of 
money on the Black Hawks, and I heard the explanations that, 
yes, you are under cost pressure. Yes, there are ammunition 
questions.
    But the practical matter is that my understanding is that 
the M-134's are from 1964 and they are having trouble getting 
spare parts, whereas the new guns are 1992. We have been told 
in Colombia that, for example, a Black Hawk helicopter that the 
military was using that had an M-60 on one side and a GAL-19 on 
the other, all the battlefield damage has been on the M-60 side 
because, in fact, even the narco-terrorists are figuring which 
side they don't want to go to. There is a substantive 
difference in the two types of guns.
    And when we have invested this amount of money in the Black 
Hawks I would argue strongly and would like to hear any 
convinc- ing evidence to the contrary that the amount of money 
that we are talking in the differential between these guns once 
we are this far along is not worth the argument we are having.
    Let's get them down there. Let's get them armed the best 
way, because long term and the relationship to Mexico is unless 
we can get control of the problems in Colombia, Mexico is going 
to continue to be a conduit. The United States is under direct 
pressure and, in my opinion, there is no more critical area of 
the world right now. Peru and Bolivia have made progress. 
Mexico and the Colombian Government are trying to make some 
inroads.
    We have a war going on down there. We can talk about being 
a cancer to the United States. But there is an actual war. And 
if we don't arm them in the absolute best ways, the pressure is 
they are going to come to us like the people in Kosovo, the 
people in Bosnia, the people all over the world and say, hey, 
America, how are you going to help?
    Because we have oil on the one side in Venezuela. We have 
drugs pouring in from Colombia. We have the canal on the other 
side. This is clearly a compelling national interest, and I 
don't understand the constant pressure with your funds not to 
impact Peru here and Boliva here and Mexico here and how are we 
going to keep the Caribbean front up?
    But I would argue that this is potentially penny-wise and 
pound-foolish if we don't get them the best guns on the Black 
Hawks.
    Do you have any comments you would like to make?
    Mr. Beers. I would, sir. I agree with you that what we want 
to do is to give them the best weapons systems in association 
with the mission that they are asked to undertake. We have 
looked at this issue. We have favored the Mark-44. They have 
initially favored the Mark-44. They are looking at the issue 
again. It is not firmly and finally decided.
    I spoke to General Serrano the day before yesterday on this 
very issue, and we have agreed to continue this subject under 
discussion.
    But if I may make a simple point, and there is a lot more 
we could talk about. The simplest point from which we started, 
sir, was that with respect to the use of these two systems 
within the U.S. military, our special operations units used the 
Mark-44 on their Black Hawk helicopters and our army regular 
forces used the GAL-19 on their helicopters.
    We have asked. We have talked. We have tried to understand 
why one unit, a highly specialized, elite set of units, have 
chosen to use the Mark-44, and we have asked why the army has 
chosen to use the GAL-19. The Mark-44 rate of fire is higher, 
almost twice as high as the rate of fire of the GAL-19. The 
GAL-19 shoots further. The GAL-19 round is heavier. Those are 
both indications that would seem to favor it.
    They also mean that on a vessel--on a platform you cannot 
take as much ammunition of the heavier variety as you can of 
the lighter variety. So if you are talking about sustained fire 
power, I am told by our military that that is an argument in 
favor of the Mark-44. We haven't settled this finally. We will 
continue to discuss this. And I would be happy to give you a 
final report when we come to final solution on this, sir.
    Mr. Souder. OK, I would like to continue to work with you, 
because General Serrano continues to request that the Colombia 
air force have that. And when we particularly go up to the 
higher elevations where the heroin is, as we make actual 
progress, the firing and the counterfire power is going to get 
greater, not less. I am confident that General Wilhelm is 
getting a handle on both the defense side and the Colombia 
National Police and they both need to be there. I am hopeful 
that we can make progress.
    But at the same time, I want to make sure it is not a 
budgetary driven question, that it is in fact substantive, what 
is the best way to win this war? Because the price of us 
marginally making decisions is being slightly behind all the 
time. We don't want another Vietnam where we are always behind.
    Mr. Beers. You notice, sir, I did not argue the budget 
issue. I can make that argument, but I am starting from where 
you are starting, sir. What is the mission? What is the 
requirement?
    Mr. Souder. And also not only what the current is, is that, 
I mean, we keep hearing about the potentiality and we know it 
is coming, the Stinger missiles and much more fire power in the 
hands of the FARC than we have seen. Because if we start to 
making inroads, it will become greater, not less. We need to 
prepare for the next step, not just where we currently are.
    Mr. Cummings had some additional questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Beers, when you were answering a question of the 
chairman, I guess over an hour ago now, he had asked you about 
a maritime agreement and you gave your answer and said there 
was no maritime agreement. It appeared that you wanted to say 
something else, and I want to give you that opportunity, 
whatever it may be, so that the record is clear.
    Mr. Beers. Thank you very much, sir. What I was intending 
to say is that we began last summer to negotiate a multi-
lateral maritime agreement with Caribbean states of which 
Mexico is one. Mexico is a full participant in these maritime 
negotiations and our negotiator prognosticates that they expect 
to resolve this maritime agreement over the course of the next 
year. That is where we are today. We will continue to work on 
it and we are happy to report to Congress on any progress.
    Mr. Cummings. How important is that agreement?
    Mr. Beers. Sir, the agreement allows, in its most general 
sense, navies and coast guards around the world or in any water 
to fully cooperate across international boundaries.
    That is the heart of it, which is if we see a problem and 
we are in pursuit and we are in international waters, we have a 
mechanism whereby we can communicate with a coastal State into 
whose waters those vessels may be proceeding. They will then 
activate their own law enforcement officials in order to 
respond to that, or if they are unable then there is a 
provision in which the coast guard, the international state, 
could pursue that vessel into territorial waters, always with 
the approval of the host nation, but a much easier process than 
otherwise. We have found this works very well with the 
Government of Colombia, where in almost every case the 
Government of Colombia, as a result of the cooperation 
mechanisms that have been set up, actually make the arrests.
    They come out. They pursue. They arrest.
    Mr. Cummings. Are our agents receiving adequate protection 
when they are in Mexico?
    Mr. Constantine. What I have commented before, and there is 
a closed session next week, I tried to avoid talking about all 
of the security issues for agents in open sessions.
    However, there has been a lot of dialog going back and 
forth and both the diplomatic and physical security of our 
agents has not been resolved and I believe is insufficient for 
the task we are giving to them presently.
    Mr. Cummings. Overall would you say we have less 
cooperation than, say, a year or more or about the same?
    Mr. Constantine. Well, as I mentioned before, I try to stay 
out of the cooperation issue because I think as a law 
enforcement official that is far afield. The one thing I will 
say----
    Mr. Cummings. Well, wait a minute. Wait a minute.
    Mr. Constantine. The traffickers are much more powerful 
than they were 5 years ago and they have grown more powerful 
every year. And they have more wealth at their disposal to 
corrupt law enforcement officials, and they use violence. That 
is the experience that I see as a law enforcement official.
    Mr. Cummings. I still want to stay on this side of the 
line, because I don't want--I'm not trying to get you over 
across this line that you don't want to cross. But have you 
come to some conclusions as to why what you just said has 
happened?
    Mr. Constantine. Well, the conclusions I draw is the people 
that I meet with, that I have respect for, the Attorney General 
of Mexico and his staff, want to do the right thing. But the 
machinery under them has been so badly infected by both 
corruption and intimidation it is difficult for them to achieve 
the things that they want and we want them to achieve. And I 
think that is the present situation as I see it in Mexico 
today.
    Mr. Cummings. When you have an opportunity to interact--I 
guess you do--with the Mexican people day to day, do you get 
the impression that they want to--and I know this may be a 
difficult question, but do you get the impression that they 
want to rid Mexico of this whole drug situation?
    Mr. Constantine. I am not an expert on the culture of 
Mexico. The one thing I will notice is that the reaction to 
crimes of violence, police misconduct, crimes by policemen, and 
police corruption has received a great deal of attention in the 
way of public demonstrations, public outcry, concern by the 
citizens of Mexico concern the quality of law enforcement 
services that they have within the country. That I pick up from 
newspapers and translations.
    Mr. Cummings. When the General was arrested and convicted, 
there was some restructuring. Am I right?
    Mr. Constantine. Yes, sir.
    Mr. Cummings. Do you think it is better now? And I know we 
have taken this one person out, removed him. But, then when you 
restructure, I guess the restructuring could be better or it 
could be worse. I mean, have you come to any conclusions on 
that?
    Mr. Constantine. That is about the third or fourth 
restructuring that I have seen since I have been head of DEA. A 
lot of the responsibility in Mexico was taken away from 
civilian law enforcement because of the problems and given to 
the military.
    We are hopeful that these new vetted units--in other words, 
we work with the Government of Mexico. We spend our money to 
make sure that these people have, as best as we can see, a very 
clean background and are not compromised. We bring them to a 
training facility in northern Virginia. The Justice Department, 
the DEA, and the FBI train them and return them so that we can 
have a unit that we can share very critical information with.
    That received a major setback this year--I have to be 
honest with you--in which senior level people within those 
units by all indications and everything I could see had been 
seriously compromised by the traffickers. So we can't give up. 
We are going back and trying to rebuild a new and better 
system. But that was a sense of major frustration to us this 
summer.
    Mr. Cummings. I would imagine that when you have a 
situation like the one you just described or you have someone 
who has been working honestly and courageously, and the next 
thing you know harm is done to them, I imagine that that must 
be--those kind of events must really set back any kind of 
legitimate operation quite a bit. Was that a fair conclusion?
    Mr. Constantine. No, that's a fair conclusion. There are a 
number of police officials and prosecutors in Mexico who have 
been assassinated by all that we can see as a result of a 
contract assassination by the major drug organizations.
    And until those leaders are brought to the bar of justice 
and held responsible for that, I can just tell you as a 
policeman in the United States if I looked around and I saw my 
leadership core being regularly assassinated and bodies found 
in the fields, I would wonder how far will I go before I place 
myself or my family in the same jeopardy. And in my comments 
that is the very purpose of this violence. It is what the Mafia 
did in the United States. They never killed police officers, 
but they killed witnesses. And for a long time they had a code 
of silence until Attorney General Kennedy, I think, as I have 
said, turned that around.
    But that violence is not always random. That has a purpose. 
And the purpose is so that nobody is willing to testify. The 
policemen, if they don't take a bribe and they want to be 
honest, then, are assassinated. I mean, at one time the police 
chief of Tijuana, back in 1995 or 1996, set out on a major 
strategy to go after the Arellano-Felix organization in 
Tijuana. He was, by all of the reports, approached by the 
trafficking organizations and offered substantial sums of money 
to stop doing that. He refused to do that. He was told you only 
get one chance, and what happened to him next, he was led to a 
phoney complaint and assassinated.
    When that happens to a police chief, that has a serious 
damaging effect to other people at other levels of the 
organization. There is no doubt about it.
    Mr. Cummings. I was just curious--as you were talking, I 
have just two more questions. As you were talking, I couldn't 
help think about in Baltimore the police funerals that I have 
gone to and think about all of the--I mean, we see it all over 
the country. Police officers come from everywhere, and it is 
such a--I mean, it is taken very seriously. I mean, the 
citizens take it very seriously. I guess it is because it is 
truly a thin, blue line, a very thin, blue line.
    I am just wondering when damage to the police officers come 
in Mexico do you see the same kind of reaction. Do you know?
    Mr. Constantine. I am not familiar with their system. I 
have been, as you have said, to far too many. Since I have had 
these two jobs, the Superintendent of State Police in New York 
and head of DEA, I have had 25 people killed in the line of 
duty and have gone to 25 funerals and met with 25 families. My 
roommate in State police school was shot and killed. I was 
lieutenant in charge of recruit training at the State police. I 
had one class of 120 kids. Three of them were shot and killed 
within 8 years.
    All of those things have had an impact on me, and that is 
why I take this so seriously. I mean, that is why I find the 
Arellano-Felix brothers, Vicente Carvillo-Fuentes, Juan 
Aspergo, I find these to be despicable, evil people who have to 
be brought to justice and have to be penalized for that 
activity if we are going to have any sense of fulfilling the 
sacrifice that has been made by these individuals involved.
    Mr. Cummings. The last question, I am just wondering, when 
the Mexican--when you talk to higher ups and folks in the 
Mexican Government, I mean, do they know the lay of the land 
and what the problems are? I mean, do they say to you, look, 
you know, you have got to help us get around all of this.
    We are just in fear. We are in fear for our families, for 
ourselves. The United States is probably the most significant 
law enforcement agency in the world. You know, help us. Do you 
get that or is it already assumed that you are going to do 
that?
    Mr. Constantine. The individuals that I mentioned I am 
involved with, yes, you have those conversations, try to find 
help. I usually pay a big price every time I testify on this 
issue for months afterwards in that I think the relationship 
chills and then becomes cool for awhile, and I take a 
responsibility for that. But that is part of the job.
    Yes, we talk about those things. I find them to be--the 
individuals that I have dealt with really want to do the right 
thing. I mean, but our frustrations are their frustrations. But 
eventually--I think somebody mentioned that somewhere down the 
line--I don't know when the year is. I don't know when the date 
is, and we talk about this for a lot of years--there is going 
to have to be an actual demonstration of the results, similar 
to that which we saw in the United States, similar to that 
which we saw in Italy, similar to that which we saw in 
Colombia. And then I think we will be making major progress and 
improvements.
    Mr. Cummings. I want to just thank both of you for your 
testimony and want to thank you for all that you are trying to 
do to make our streets safer and our lives better. I really 
appreciate it. I am sure I speak for all of us.
    Mr. Souder. I will also thank you for how long you have 
been here and for taking the different questions. We have 
worked with both of you for a long period of time and not just 
on behalf of our citizens but also those in Fort Wayne, where 
we now have a DEA task force starting up. And, also, in the DEA 
and in the State Department employees as we have been in 
Central and South America and around the world, those people 
are right on the front lines. They have been very helpful, very 
forthcoming. I really appreciate the commitment.
    We may have disagreements from time to time on how to do 
different things, how to balance all the financial things. But 
what we need to do is have a united American front, and I 
really appreciate the efforts of DEA around the world as well 
as domestically and in the State Department, not only in 
directly fighting narcotics but in helping with crop 
eradication and crop substitution where we are actually making 
progress in some countries.
    And if we continue to make that progress and get the 
pressure on the transit zone and in Mexico and win the battle 
in Colombia, we will at least have moved it all to 
methamphetamine or something else. But it is a matter of this 
constant, and we thank you both for your leadership.
    If the second panel could come forward, at this time I 
would like to recognize from the General Accounting Office Mr. 
Ben Nelson, the Director of International Relations, Foreign 
Trade, National Security, International Affairs Divisions. He 
is joined by his Assistant Director, Mr. Ron Kushner. And 
before you sit down, we need to swear in all of our witnesses. 
So would you raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses answered 
in the affirmative.
    Mr. Nelson, would you commence with your remarks when you 
are ready.

    STATEMENT OF BENJAMIN NELSON, DIRECTOR OF INTERNATIONAL 
RELATIONS AND TRADE ISSUES, NATIONAL SECURITY AND INTERNATIONAL 
 AFFAIRS DIVISION, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED 
               BY RON KUSHNER, ASSISTANT DIRECTOR

    Mr. Nelson. Mr. Chairman and members of the subcommittee, I 
am pleased to be here to discuss our work on the 
counternarcotics efforts of the United States and Mexico.
    My prepared statement, which I will veer away from a little 
bit in the interest of time, will highlight the findings from 
our ongoing effort to update our June 1998, report on this 
matter. This was requested by former Chairman Hastert and 
Senator Grassley.
    My statement covers two broad issues, Mexico's efforts to 
address the drug threat and United States counternarcotics 
assistance provided to Mexico. You just heard administration 
witnesses provide their perspective on the drug problem facing 
our two countries. You heard about the threat.
    Let me recount. Mexico is one of the largest centers for 
narcotics-related business in the world. Mexico is still the 
principal transit country for cocaine entering the United 
States. Mexico is either a producer, refiner or transit point 
for cocaine, marijuana, methamphetamine and heroin. It is also 
a major hub for the recycling of drug proceeds. Mexico's Juarez 
drug trafficking organization is as powerful and dangerous as 
Colombia's Medellin and Cali cartels used to be.
    Mexico's poorest border and the daunting volume of 
legitimate cross-border traffic, some 86 million cars and 4 
million trucks, provide near limitless opportunities for the 
smuggling of illicit drugs and the proceeds of the sales of 
those drugs.
    You also heard discussion about the level of progress that 
has actually been made. You also were told by administration 
witnesses of the problem of corruption. Our own work indicates 
that drug traffickers spend approximately $6 billion a year to 
suborn various law enforcement and public officials. You have 
also heard today about the new initiatives that the Mexican 
Government plans to undertake to better address the problem.
    What you have not heard was much discussion on United 
States assistance to Mexico.
    In light of the fact that many of the key factors, the 
progress or lack thereof, have been well established, I would 
like to focus briefly on U.S. assistance, the usefulness of 
it--the nature of it, the usefulness, and trends in the 
provision of assistance. Since 1997, the Departments of State 
and Defense have provided the Government of Mexico with over 
$112 million worth of equipment, training and aviation spare 
parts for counternarcotics purposes. The major assistance 
included helicopters, aircraft and two Knox class frigates 
which were purchased by the Mexican Government through our 
foreign military sales program.
    Last year, I testified that some of the assistance provided 
to the Mexican military was of limited usefulness due to 
operational and logistical support problems. In the past year, 
the two frigates have become operational. Unfortunately, the 
situation with the helicopters has gotten worse. All 72 of the 
helicopters provided to the Mexican military have been grounded 
because of air worthiness concerns. In addition, the four C-26 
aircraft provided have not been used for counternarcotics 
operations.
    Mr. Chairman, this concludes my opening statement. I or Mr. 
Kushner will be happy to respond to any questions that you may 
have.
    [The prepared statement of Mr. Nelson follows:]
    [GRAPHIC] [TIFF OMITTED] T2540.068
    
    [GRAPHIC] [TIFF OMITTED] T2540.069
    
    [GRAPHIC] [TIFF OMITTED] T2540.070
    
    [GRAPHIC] [TIFF OMITTED] T2540.071
    
    [GRAPHIC] [TIFF OMITTED] T2540.072
    
    [GRAPHIC] [TIFF OMITTED] T2540.073
    
    [GRAPHIC] [TIFF OMITTED] T2540.074
    
    [GRAPHIC] [TIFF OMITTED] T2540.075
    
    [GRAPHIC] [TIFF OMITTED] T2540.076
    
    [GRAPHIC] [TIFF OMITTED] T2540.077
    
    [GRAPHIC] [TIFF OMITTED] T2540.078
    
    [GRAPHIC] [TIFF OMITTED] T2540.079
    
    [GRAPHIC] [TIFF OMITTED] T2540.080
    
    [GRAPHIC] [TIFF OMITTED] T2540.081
    
    [GRAPHIC] [TIFF OMITTED] T2540.082
    
    [GRAPHIC] [TIFF OMITTED] T2540.083
    
    [GRAPHIC] [TIFF OMITTED] T2540.084
    
    [GRAPHIC] [TIFF OMITTED] T2540.085
    
    Mr. Souder. I want to ask an initial question. I will go to 
Mr. Cummings and then come back. You just alluded to these 
helicopters.
    Mr. Nelson. Yes, sir.
    Mr. Souder. I have visited Colombia, actually four times 
now, and have been to their facilities where they are repairing 
these things. If they think they can get it off the ground, the 
helicopter goes up. They borrow parts from all sorts of things 
to get their helicopters flying. You have a statement here that 
says, in addition, four C-26 aircraft are not being used for 
counternarcotics operations. Right before that you said all of 
their Hueys are grounded because of air worthiness concerns, 
which is an American problem as well in trying to get that up.
    What about these four C-26. Could they fly?
    Mr. Nelson. Yes. The problem with the C-26's--and Mr. 
Kushner can add to my statement since he has been down to 
Mexico. But the problem is not a mechanical problem. It is the 
mission. It is whether those aircraft can be suited for a 
counternarcotics mission in their current state.
    Mr. Kushner. So they are not configured for surveillance 
type operations. It would cost about $3 million per aircraft to 
reconfigure those so the Mexicans could use them for 
surveillance type operations. They received four of them, as we 
testified. One of them is completely down. I understand that 
the nose gear is collapsed and has not been repaired. And the 
three other ones, they are operational. They may fly them for 
transport purposes, but no counternarcotics missions are being 
flown.
    Mr. Souder. Have they requested funds for these or have 
they done anything in their own government to try to get them 
ready? They are just letting them sit there? Why did we give 
them to them if they are just going to sit there?
    Mr. Kushner. That is a good question. It is negative to 
both your questions. As far as we know, the Mexicans have not 
specifically requested funds to fly the C-26's nor has the 
United States Government provided funds to maintain and get 
those things operational. It is another thing, you can fly 
those aircraft but they also have to be maintained. It is kind 
of a complex aircraft and normally it would have a contractor 
come in and do the maintenance of them. There is no contractor 
down there maintaining those aircraft.
    Mr. Souder. Did they request these?
    Mr. Kushner. As far as I know, sir, no.
    Mr. Souder. So will you----
    Mr. Kushner. We have four aircraft down there, sir, that 
are just basically not being used for counternarcotics 
purposes. As we reported last year and we made a recommendation 
to the Department of Defense and Department of State, that 
better planning and coordination is needed when you are 
considering the type of packages you are going to provide for 
counternarcotics purposes.
    Mr. Souder. Were they ever even consulted about these?
    Mr. Kushner. I can't answer that, sir. I do not know 
whether the Mexicans were consulted about their need for a C-26 
or not.
    Mr. Souder. The bottom line is that it looked good for us 
to send the stuff down there like there was an antinarcotics 
effort going on, but they didn't request it. There is no money 
in their budget for it. There is no money in our budget to get 
them up to speed. They are sitting on the ground and they are 
not being used for counternarcotics. Is your general 
impression--have you looked at Colombia as well as Mexico in 
other research? Do you think that Colombians would have these 
things sitting on the ground?
    Mr. Kushner. I have not looked at Colombia personally, but 
Mr. Nelson knows a little bit more about that than I do.
    Mr. Souder. Mr. Nelson, do you think the Colombians would 
have these sitting on the ground without a request in? I mean, 
do you know of any case where there is a Colombian helicopter 
sitting on the ground that can fly?
    Mr. Nelson. Well, to your first question, I can't answer 
whether, you know, this would be the case in Colombia. But I do 
not know of any helicopters that are sitting on the ground in 
Colombia that are not being used.
    Mr. Souder. And when we were just in Mexico we were told 
that they were going for more go-fast boats. They were looking 
for different surveillance equipment, and they were putting 
certain things in their budget. Now all this happened 10 days 
before certification was due.
    Mr. Nelson. Correct.
    Mr. Souder. But that they had, because they are concerned 
about being able to control these coasts, wouldn't these four 
C-26 help with that?
    Mr. Nelson. If they were fitted with the----
    Mr. Souder. In other words, if these were fitted properly, 
would these help with those efforts?
    Mr. Nelson. Yes. I would agree.
    Mr. Souder. I will yield to Mr. Cummings.
    Mr. Cummings. I only have a couple of questions. I 
understand these gentlemen have to get over to the Senate. Is 
that right?
    Mr. Nelson. Yes, sir.
    Mr. Cummings. Let me ask you this. Why is the organized 
crime unit short of fully screened staff? Do you know what the 
hold-up is?
    Mr. Kushner. I think it revolves around having personnel to 
do the final screening of them. Those questions have come up 
over the last 6 or 7 months. With the rescreening of some of 
the individuals within the organized crime unit who actually 
failed the rescreening process, there are questions about how 
they are going to proceed again. So it has been slowed down 
somewhat. But 50 percent of the OCU staff are not fully 
screened.
    Mr. Cummings. Also in the report it talks about how you 
think that Mexico needs a sufficiently screened, better paid 
core of judges to hear drug cases. And I take it that this is 
not an idea that is brand new. What is the hold-up there?
    Mr. Kushner. That hasn't been really pursued by anyone as 
far as we know within the Government of Mexico. The screening 
process the Government of Mexico has instituted down there, it 
is staffed but it is a limited staff and it has limited 
equipment availability, meaning polygraph-type machines. And 
these people have to be trained on the use of those machines.
    So I would say it is a resource constraint as well as just 
prioritizing the people within Mexico and the law enforcement 
community and the judicial community that you are going to 
screen. They elected to go with the law enforcement and the 
specialized units initially.
    Mr. Cummings. So you said initially. And then what happened 
when it got past the initially?
    Mr. Kushner. The intent, as far as we know, is to continue 
this screening process certainly within the Attorney General's 
office. Now, the specialized units make up just a small part of 
the Attorney General's office. I believe the total staffing 
within the Attorney General's office is upwards of 17,000 
people. We have been told that their goal is certainly to 
screen all those individuals and they will move on.
    Mr. Cummings. Mr. Nelson, did you have something to add?
    Mr. Nelson. Yes, sir. I believe you raised a very important 
issue there with respect to the judges and not having a cadre 
of professional judges. First of all, I think the screening 
process--some judges may not have to, or it doesn't cover 
judges. The issue with the judges is critical in that other law 
enforcement actions, their effectiveness is reduced if, in 
fact, you capture the drug traffickers and bring them before a 
judge who will not mete out the proper sentence or that the 
traffickers are basically not convicted. And corruption in the 
judicial branch is a critical issue in Mexico.
    Mr. Cummings. So you said judges aren't screened?
    Mr. Nelson. No. The judges are not screened.
    Mr. Cummings. You know, you would think that with all the 
problems that they have had and all the corruption that it 
might move to that level. How do you define screening?
    Mr. Nelson. Basically, it is a test to determine whether an 
individual is connected with a trafficking organization or 
whether they have something in their past that would raise 
questions about their trustworthiness. As Mr. Kushner said, it 
involves lie detector tests and some other steps.
    Mr. Kushner. Psychological profiles, social and financial 
background checks, medical and physical history. Those are the 
types of areas that they cover during the screening process, as 
well as the polygraph.
    Mr. Cummings. So how are judges elected, then? I mean, do 
they have to go through a process like Federal judges do here, 
for example?
    Mr. Kushner. I am not too familiar with the process of 
selecting judges in Mexico, but I believe a good number of them 
are appointed.
    Mr. Cummings. OK, I don't have anything else. Thank you all 
very much.
    Mr. Nelson. Mr. Souder.
    Mr. Souder. Yes.
    Mr. Nelson. I have a response from staff back there on your 
question regarding helicopters in Colombia. I guess there is a 
big problem with the Hueys.
    Mr. Souder. Yes. That is universal in our military, too.
    Mr. Nelson. Right. Only a third of those in Colombia were 
fully operational last year.
    Mr. Souder. The reason I moved to the C-26's is that even 
our military, our guard units, all have a problem right now 
getting them--we've grounded. So some countries have continued 
to fly those but against our own advice.
    I have a couple of additional questions, just to review the 
summary of your testimony here.
    In your testimony, both written and much of what you gave, 
you said in 1998, no major Mexican drug trafficker was 
surrendered to the United States on drug charges.
    You said the heroin threat from Mexico appears to be 
increasing. The cultivation of opium in Mexico producing 
poppies increased by 3,000 hectares in 1998.
    You said that corruption remains widespread within the 
Mexican Government institutions including the criminal justice 
system. You said that a number of senior military and screening 
personnel were found to either be involved in or suspected of 
drug-related activities.
    You said that the helicopters weren't in the air, 
particularly the C-26's. The Mexican narcotics trafficking 
organizations facilitate the movement of between 50 and 60 
percent of almost 300 metric tons of cocaine consumed in the 
United States.
    You said that drugs are still flowing across the border at 
the same rate approximately as 1997. You said there have been 
no significant increases in drug eradication and seizures. I 
think the statistics we were given even by the Mexican 
Government said that cocaine and opium gum seizures declined. 
In their statistics they gave us maritime interdiction also 
declined.
    You said that money laundering prosecutions and convictions 
have been minimal. You said that corruption remains the major 
impediment to Mexican counternarcotics efforts. And you said 
that most drug trafficking leaders continue to operate with 
impunity.
    As far as results, have you seen any good results or any 
signs that they are fully cooperating from a results side?
    Mr. Nelson. Well, there were some results last year. And 
the witnesses here have pointed out the situation in Cancun, 
where the property of drug traffickers was confiscated. And, of 
course, there was another initiative--what was the second one?
    Mr. Kushner. Well, I think one of the major accomplishments 
that happened in Mexico this year, as was pointed out by Mr. 
Constantine this morning, was the arrest of Jesus and Luis 
Amezcua, and previously they arrested his brother Rodon. That 
is considered, I think, certainly within the law enforcement 
community, a major accomplishment. The operation in Cancun was 
a major undertaking this past fall, where about $200 million 
worth of property has been seized, including 4 hotels, a number 
of restaurants, a number of yachts, and about 22 residences.
    Mr. Souder. Anybody arrested?
    Mr. Kushner. Pardon me, sir?
    Mr. Souder. Anybody arrested, government or political 
officials?
    Mr. Kushner. No, sir. As far as we know, there has been no 
major arrest made in the Cancun operation. That doesn't mean 
that there haven't been any small operators arrested. I don't 
think there have been any major operatives in Cancun or in the 
Yucatan that have been arrested.
    Mr. Nelson. I might add, though, that the arrests could be 
viewed as a positive. It has been established here that the 
charges against both have been basically dropped and it is only 
the U.S. request that is holding them in jail at this point.
    Mr. Souder. I mean, it is a problem for those of us in 
Congress who represent districts where--in my district there 
has been a shift in where the drugs are coming from. They are 
mostly coming from Mexico. And as we see particularly heroin 
pouring into our country that is native to Mexico, it isn't 
even just a transit zone. And that, in effect, what you are 
telling us is that the heroin threats increase and the cocaine 
threats are increasing. They are not doing the helicopters. 
They are having problems screening their people. Corruption is 
widespread in their courts. They have actually gone down or at 
least not had any increases in eradication and seizures. They 
are plowing across the border. They are threatening to sue us 
over a money laundering prosecution that--their drug leaders 
continue to operate in impunity. And the two good signs are 
that in Cancun they started a process, although they haven't 
arrested anybody. And in the other place they have started a 
process but we don't know whether they are going to be 
prosecuted. And furthermore, in their constitution they don't 
have life imprisonment.
    You know, looking at it as an official here, this 
politically isn't that hard that, in fact, when we were just 
down on the Texas border I was told by an official, which is 
broad enough to cover all the departments so they can't find 
the person, that they refer to it as the North American Free 
Drug Trading Act. Because they don't know how to control the 
border, because it is so massive and the cooperation is there.
    Do you have any suggestions about our ability to monitor 
both the southwest border as well as the Pacific and Atlantic 
Coasts unless we can get a higher rate of cooperation?
    Mr. Nelson. Well, I believe that certainly you can't tackle 
the problem without a lot of cooperation. But there are 
barriers to that cooperation, and they are on both sides. On 
our side it is how much information can we share at the 
operational level without compromising our activities.
    I think you will hear statements of cooperation at the 
highest level of government but you must translate that down to 
the operational level to attack the traffickers, the 
organizations, to carry out seizures and so forth. And that is 
problematic. I am very familiar with the situation on the 
southwest border, and we have a major conflict there between 
our goals of facilitating the free movement of goods across the 
border and consistent with both our objectives for economic 
development. At the same time, it provides limitless 
opportunities for drug smuggling.
    I have been down to the border area and you can see the 
various means that people use to get the drugs into the 
commercial traffic and across the border.
    Mr. Souder. What you are saying is very troubling, because 
are you saying that the two goals are mutually exclusive?
    Mr. Nelson. I am not saying that they are mutually 
exclusive, but I do think that it represents a situation where 
they can come into conflict, but I don't think the country can 
back away from either of those goals and it is going to require 
much greater cooperation between the two countries to address 
it.
    Mr. Souder. Because in Fort Wayne I don't want the choice 
of whether to have kids die, people shot in streets, gangs 
selling drugs, for a few additional jobs. In actuality, we 
probably lose in net jobs.
    But even from a national American perspective, these are 
tough tradeoffs. I mean, some of this, when we were at the 
Juarez-El Paso border and you see there is one free bridge 
backed up for hours, the pressure on those people to expedite 
the cars through when you don't see the lines at the bridges 
that have a fee, but then the pressure that goes on those 
agents to accelerate or the confusion that occurs, as we've 
heard in other border crossings where they will send somebody 
who is, in effect, a decoy with a light load to then slip it in 
because it backs up and the pressure gets on and people get 
upset in their cars. It's human nature, then, and it limits our 
ability to do that.
    We have to have the will, I believe, which is what is 
lacking in your tradeoff, to say either we are going to have 
more border crossing places with more equipment. Because you 
have almost set up a, oh, this is a trade or drugs. But aren't 
there some things that we could aggressively do that could 
potentially get at the drugs more, even if we were going to 
allow the border crossings?
    Mr. Nelson. I agree with you. The situation along the 
border is very daunting. One only has to be there to see the 
trucks backed up for miles to see the hard work of the drug 
enforcement agents and the Customs people trying to make sure 
that drugs are not getting into the country. One only has to go 
there to understand the task at hand.
    I think a preliminary kind of effort would be to enhance, 
through more technology and other means, the ability of our 
people on the border to do their job of detecting illicit 
drugs. There are other steps that I believe can be taken 
including increasing cooperation with United States 
counterparts in Mexico. There are a number of steps that I 
think can be taken that would tend to ameliorate the problem, 
but I don't think they will fully eliminate the problem of 
trying to facilitate the movement of goods while at the same 
time trying to protect this country from the scourge of drugs.
    Mr. Souder. Do you see any signs on the Mexican side of the 
border that they are doing things? For example, when we--I 
mean, anybody driving down the highway can see we have places 
where trucks go over to get checked for weight. Do you see any 
signs that before any of their vehicles are heading toward 
America that they are doing any antidrug screening? Is there 
anything on the other side of the border crossings that show 
that they are committed to trying to reduce the number of 
narcotics coming into our side?
    Mr. Nelson. I am personally not aware of any effort on the 
parts of the Mexican Government. I do know that the United 
States has a proposal or is considering some type of system of 
preclearance for trucks and drivers that have been precleared 
in Mexico to ease the inspection at the border. I am not sure 
of the status of that. I was told that that is one of the 
proposals being considered and that they are testing certain 
technology to try to see if this will, in fact, be practical.
    Mr. Souder. If you were looking at this, in your opinion, 
are they full cooperating?
    Mr. Nelson. I am not in a position to answer that question. 
What I can do is say when you look at tangible results in terms 
of seizures, law enforcement activities, people who have gone 
to jail, there are not many very firm, tangible results that 
you can point to over the last couple of years.
    Mr. Souder. If I may ask one last question that we 
constantly heard in almost every meeting when we were just 
recently in Mexico and we hear this--we have heard this 
before--is let's don't talk about what has happened in the 
past. We are committed to change.
    Now as Mr. Constantine said, this is the fourth round of 
this. And you made an allusion, Mr. Nelson, just a few minutes 
ago, that we have to know that our information isn't being 
compromised. But, in fact, when they had a drug czar who was in 
an apartment owned by a cartel owner and they didn't know that 
and we didn't know that and we heard it in front of this 
committee before that our administration is concerned that 
every single piece of material had been compromised, every 
potential witness, every potential informant, all of our 
uncover agents had been compromised and, that, in fact, history 
sometimes can be a projection and sometimes it isn't a 
projection of what is going to happen next.
    But wouldn't you recommend, based on what you have seen, 
that to some degree history says that we should be cautious 
before we do too many exchanges and build on some record of 
success here, and it is not completely irrelevant?
    Mr. Nelson. Yes. I would agree with you that you have to be 
cautious. But I think that the U.S. law enforcement community 
is very much aware of the problem and that they tend to factor 
this into the level of cooperation, what they share and what 
they do not share and so forth.
    I think the issue of corruption runs through all of the 
processes, all of the steps and all of the institutions that 
you have to use to attack the problem.
    Mr. Souder. As an auditor, if you were looking at them, and 
let's say we shared all of our information sources with them 
this year and then had problems, wouldn't you come back here as 
GAO and say why did you share all of that information given the 
past history?
    Mr. Nelson. It's a choice between making some progress and 
having basically an arm's length relationship. I think both 
countries have to work together.
    The endemic corruption in the institutions, I think, is 
going to be there. It is going to take awhile. And we have to 
basically work to achieve what we can, but we need to stay on a 
course of showing some progress. I think that is where we need 
to establish a good game plan for attacking the problem, 
including giving them equipment and assistance that works and 
holding the government accountable for achieving some positive 
outcomes as the only way of dealing with what is a long-term 
problem that is going to require sustained effort on the part 
of both governments.
    Mr. Souder. Well, I thank you for your comments, and Mr. 
Kushner's. Because there is no question what you say is true. I 
mean, Mexico is not going to disappear.
    It is clear in North America and Central and South America 
unless we work together in this hemisphere in trade questions 
and in our people moving back and forth across the borders, we 
have to learn how to get along. It is more a question of how 
fast, in what way.
    Mr. Nelson. At the General Accounting Office, I have 
responsibility for a lot of issues where U.S. objectives can 
only be achieved through cooperation and coordination with 
either multilateral institutions or other countries. And when 
you look at the range of issues we have with Mexico, I think 
that cooperation, sincere cooperation, at all levels is going 
to be required to address some of the fundamental issues that 
go to trade, to immigration, law enforcement. Just a number of 
key United States policy objectives play out on the Mexican 
border, including environmental issues, labor issues, and so 
forth.
    Mr. Souder. Well, once again, I thank you for your 
testimony. There is no question from what we have heard both in 
the first panel and the second panel that we have a very 
difficult decision facing us in the House, because while we can 
agree that there have been attempts to make progress, the 
results haven't been particularly impressive. And we need to 
sort through this decertification process, not because it is 
fun to go through but because we are very concerned about the 
drug problem in this country facing our kids, facing our 
families, what it has done to our country, what it has done in 
corrupting Mexico, what it is doing and has corrupted Colombia 
in the past. We have seen success stories in Peru and Bolivia.
    There is no doubt that as those governments have gone after 
it, we have seen changes in those countries. We have seen when 
we have put up efforts at interdiction we can actually reduce 
the flood into our country and drive the prices up, which by 
driving those prices up and what they can pay by forcing them 
into river traffic as opposed to air traffic, we then result in 
the people on the ground being paid less, which means that they 
look for alternative crops.
    There are successes. We need to do more in demand reduction 
in our country, and we are working on that, on treatment and 
prevention programs. Enforcement, drug testing in a variety of 
different forms.
    These are very difficult issues. But one of the fundamental 
questions we have to ask is if we have a drug certification 
process, as I favor and as Chairman Mica originally put in as a 
staffer when he was over in the Senate, if we favor this and 
you never implement it even when there aren't results, do you 
lose the effectiveness of the whole process, a process that has 
served us, in my opinion, well as a country, especially when, 
as we heard earlier in this hearing, that, in fact, it wouldn't 
cutoff all trade. It doesn't cutoff all assistance. And if you 
aren't willing to make some steps, are we really ever going to 
get the results?
    So we appreciate your participation in the hearing today 
and the report that you gave us. We will leave the record open 
for 2 weeks for additional questions in written form and 
additional comments from our members. And with that, our 
hearing stands adjourned.
    [Whereupon the committee was adjourned at 1:43 p.m., 
subject to the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T2540.086

[GRAPHIC] [TIFF OMITTED] T2540.087

[GRAPHIC] [TIFF OMITTED] T2540.088

[GRAPHIC] [TIFF OMITTED] T2540.089

[GRAPHIC] [TIFF OMITTED] T2540.090

[GRAPHIC] [TIFF OMITTED] T2540.091

[GRAPHIC] [TIFF OMITTED] T2540.092

[GRAPHIC] [TIFF OMITTED] T2540.093

[GRAPHIC] [TIFF OMITTED] T2540.094

[GRAPHIC] [TIFF OMITTED] T2540.095

[GRAPHIC] [TIFF OMITTED] T2540.096

[GRAPHIC] [TIFF OMITTED] T2540.097

[GRAPHIC] [TIFF OMITTED] T2540.098


</pre></body></html>
